<html>
<title> - EFFECT OF GOVERNMENT SHUTDOWN ON VA BENEFITS AND SERVICES TO VETERANS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
 EFFECT OF GOVERNMENT SHUTDOWN ON VA BENEFITS AND SERVICES TO VETERANS

=======================================================================


                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       WEDNESDAY, OCTOBER 9, 2013

                               __________

                           Serial No. 113-38

                               __________

       Printed for the use of the Committee on Veterans' Affairs





                  U.S. GOVERNMENT PRINTING OFFICE
85-863                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking
GUS M. BILIRAKIS, Florida            CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE MCLEOD, California
MARK E. AMODEI, Nevada               ANN M. KUSTER, New Hampshire
MIKE COFFMAN, Colorado               BETO O'ROURKE, Texas
BRAD R. WENSTRUP, Ohio               TIMOTHY J. WALZ, Minnesota
PAUL COOK, California
JACKIE WALORSKI, Indiana

                       Jon Towers, Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                            October 9, 2013

                                                                   Page

Effect Of Government Shutdown On VA Benefits And Services To 
  Veterans.......................................................     1

                           OPENING STATEMENTS

Hon. Jeff Miller, Chairman,......................................     1
    Prepared Statement of Chairman Miller........................    40
Hon. Michael H. Michaud, Ranking Minority Member.................     3
    Prepared Statement of Hon. Michaud...........................    41
Hon. Corrine Brown, U.S. House of Representatives, Prepared 
  Statement only.................................................    41

                               WITNESSES

Hon. Eric K. Shinseki, Secretary, U.S. Department of Veterans 
  Affairs........................................................     4
    Prepared Statement of Hon. Shinseki..........................    42

                        STATEMENT FOR THE RECORD

Paralyzed Veterans of America....................................    46
Iraq and Afghanistan Veterans of America.........................    48
AMVETS...........................................................    49
Veterans of Foreign Wars.........................................    51


 EFFECT OF GOVERNMENT SHUTDOWN ON VA BENEFITS AND SERVICES TO VETERANS

                       Wednesday, October 9, 2013

                     U.S. House of Representatives,
                            Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:29 a.m., in 
Room 334, Cannon House Office Building, Hon. Jeff Miller 
[Chairman of the Committee] presiding.
    Present: Representatives Miller, Lamborn, Bilirakis, Roe, 
Flores, Denham, Runyan, Benishek, Huelskamp, Amodei, Coffman, 
Cook, Walorski, Michaud, Brown, Takano, Brownley, Titus, 
Kirkpatrick, Ruiz, Negrete McLeod, Kuster, O'Rourke, and Walz.
    Also Present: Representative McNerney.

              OPENING STATEMENT OF CHAIRMAN MILLER

    The Chairman. This hearing will come to order. Before we 
begin, I would like to ask unanimous consent from the Committee 
that the gentleman from California and former Member of this 
Committee, Mr. McNerney, be allowed to join us at the dais 
today and participate in today's proceedings. Hearing no 
objection, so ordered.
    Mr. Secretary, welcome to the Committee. I appreciate, 
sincerely appreciate you being here on relatively short notice. 
And we are here today to understand how veterans are being 
impacted by the lapse in appropriations that has the government 
currently in a shutdown mode. There is plenty of blame that can 
be shared as to why we are in this position, but that is not 
why I called the hearing. I really called the hearing so that 
we can get the best possible information available out to the 
veteran community.
    Veterans want to know whether their disability checks and 
GI bill benefits will be paid in November and thereafter. They 
want to know if their disability claims will be decided or 
further delayed. Families want to know if their loved ones will 
receive a timely burial at VA national cemeteries. And many of 
VA's employees themselves want to know whether they will be 
serving veterans on the job or whether they are going to be 
furloughed.
    I understand that answers to some of these questions are 
entirely dependent on how long this shutdown lasts. And 
although I want to be sure that most of us agree that we want 
the shutdown over quickly, it is our responsibility to ensure 
that the public, especially veterans, understand what the 
current state of play is.
    First of all, Mr. Secretary, I want to say, that in the 
last couple of weeks, getting good information about VA's 
contingency plans and the effect of a lapse in appropriations, 
and its effect on veterans has been very difficult to get out 
of your office. For example, the original field guide that VA 
put out regarding the shutdown impact at first spoke of no 
effect, no effect on payments to veterans, or processing of 
their benefits. But in a later version, VA stated that a 
prolonged shutdown would impact both, but didn't provide any 
details as to how it would be impacted.
    Secondly, the Veterans Health Administration is not shut 
down at all because it has received a full year's appropriation 
for 2014 back in March. So hospitals, clinics, and vet centers 
should all be open for business. Yet the President made a 
statement the day before the shutdown saying that veterans will 
find their support centers unstaffed and implied that 
counseling services for veterans with PTS would be affected.
    Third, this Committee has consistently been told VBA's 
mandatory overtime effort towards the backlog would actually 
end on September 30. Yet days into the shutdown, we are now 
informed that the shutdown prevented VA's planned continued 
payment of overtime.
    Fourth, although a shutdown should have a relatively 
uniform effect across all regional offices, as suggested by 
your own field guide, my staff met with several representatives 
from VSOs last week, who relayed that their members are hearing 
mixed messages out of different regional offices. And I think 
it goes without saying none of this is ideal.
    Some degree of confusion is to be expected, and we 
understand that. But VA employees should be worrying about VA's 
mission of service to veterans, not planning for furloughs or 
managing an agency on spare change remaining from last year. 
However, what can never be expected is anything less than the 
full truth, as best as it is known at the time. This grave 
situation does not need to be assisted by misleading statements 
from anybody, statements designed to aid a political argument 
by any political party, regardless of which one we may belong 
to.
    It is my hope that we can uphold the best traditions of 
this Committee and rise above all of that today. Mr. Secretary, 
I appreciate your willingness to join us in this effort. Since 
this hearing was called last Friday, we have had a little bit 
more clarity on some of the issues we have been asking your 
staff about for the last 10 days. But I thought the public 
should hear some of the same information.
    Now, one last point before I conclude. Last July, we held a 
hearing on a bill that the Ranking Member and I introduced that 
proposed to advance fund the entire VA discretionary budget. 
The administration declined to take a position on the bill, 
saying, instead, it needed to conduct a review first. It is 
obvious that no review is necessary given where we are today.
    Mr. Secretary, I sincerely hope that you are making that 
case with the administration. And I will follow up with you on 
that point during questioning.
    And I now recognize the Ranking Member, Mr. Michaud, for 
his opening statement.

    [The prepared statement of Chairman Miller appears in the 
Appendix]

          OPENING STATEMENT OF HON. MICHAEL H. MICHAUD

    Mr. Michaud. Thank you very much, Mr. Chairman, for having 
this hearing today.
    And I want to thank you, Mr. Secretary, for coming.
    Before we begin exploring how the government shutdown is 
affecting veterans and the VA, I want to acknowledge the very 
real consequences the lapse in appropriation has had on VA 
employees. I know that VA employees do not work solely for a 
paycheck. They work because they believe in helping veterans. A 
lot of them are veterans. And they have done a phenomenal job. 
And now it is time for Congress to do its job.
    We can do this in two ways. Number one, either the Senate 
take up the MILCON/VA appropriation bill that was passed by the 
House 4 months ago, or the House can take up a clean CR passed 
by the Senate. I don't care which one that we choose, as long 
as we get on with the reopening of government and that we fully 
fund VA.
    The VA contingency plan and field guide provide us with a 
rough idea of the consequences of a government shutdown. Last 
week, we saw the immediate shutdown, what it had on some of the 
VA offices, such as the Inspector General. Yesterday, we saw 
some VBA and IT accounts run dry and thousands of VA employees 
furloughed. We know that the mandatory funds to pay 
compensation and pension benefits are scheduled to run out in 
little over 2 weeks.
    We also know that furloughs and suspensions of programs in 
other agencies also affect veterans. Of the roughly 2.1 million 
Federal employees, more than 600,000 are veterans. Many of them 
are already, or expect to be, furloughed. Also, as programs and 
services at other agencies are disrupted, it affects VA's 
ability to receive the necessary information and support to 
deliver those services for our veterans.
    We know we will hear bad news today from you, Mr. 
Secretary. Important VA operations have, or will be, suspended. 
Some veterans will not get what they are expecting, what they 
deserve, and most importantly, what they have earned. This may 
be a difficult conversation, but one that we must have openly, 
frankly, and honestly.
    But amidst the bad news, there is some good news. With VA's 
medical accounts under advance appropriation, the Veterans 
Health Administration is largely unaffected by lapse in the 
fiscal year 2014 appropriation. All medical facilities are 
open, as you heard from the Chairman, and operating under 
normal status. This will continue, regardless how long the 
current government is shut down.
    It is clear now that in the midst of the shutdown, that 
getting a vote on H.R. 813, as amended, the Putting the 
Veterans Funding First Act, is necessary and a critical step in 
ensuring veterans' benefits and services are not put at risk 
when there is a lapse in appropriations.
    Mr. Chairman, I want to thank you for signing on the letter 
with me to the Speaker asking that H.R. 813, as amended, be 
scheduled for floor action. I encourage all Members of the 
Committee to sign onto that letter and to send a message that 
veterans should not, and cannot, and will not be disadvantaged 
by party politics in the future, regardless of which party is 
in control.
    Mr. Secretary, I look forward to your testimony and the 
questions to follow.
    Mr. Chairman, once again I want to thank you very much for 
having this very important and timely hearing today. With that, 
I yield back the balance of my time.

    [The prepared statement of Hon. Michael H. Michaud appears 
in the Appendix]

    The Chairman. Thank you, Mr. Michaud.
    Thank you to all the Members for your attendance today. As 
you might imagine, this is a critical time within our 
government, and certainly for our veterans out there. And that 
is why I asked the Secretary, and I am so pleased that on very 
short notice, he was able to come in and give us some 
indication of where we are now within the VA, and where we will 
be going in the future, depending on how long this shutdown 
does in fact continue.
    I want to welcome to the table our first and only witness 
of this morning, the Honorable Eric Shinseki, Secretary for the 
U.S. Department of Veterans Affairs.
    Your complete written statement, Mr. Secretary, will be 
entered into the record, and you are recognized now for 5 
minutes.

             STATEMENT OF THE HON. ERIC K. SHINSEKI

    Secretary Shinseki. Great. Chairman Miller, Ranking Member 
Michaud, Members of the Committee, thank you for entering my 
written statement.
    Let me, Mr. Chairman, just recognize that in the room here, 
we have partners for all of us from our veterans service 
organizations. I would tell you they have been quite directly 
helpful to me over the past 4\1/2\ years in trying to help us 
understand how to be better at our responsibilities of caring 
for veterans, but also servicemembers and families and 
survivors that we are responsible for.
    Mr. Chairman, you called this hearing to examine the effect 
of the government shutdown on VA benefits and services to 
veterans. And while my written testimony describes many effects 
on VA due to the ongoing lapse in appropriations, let me just 
say, unequivocally, that all the effects that I described, and 
I am going to describe of the shutdown are negative. It is an 
impediment to VA's ability to deliver services and benefits 
that veterans have earned through their service.
    VA continues to invest significant resources and time and 
planning for this unique, infrequent, and avoidable situation. 
The ongoing shutdown presents myriad legal and programmatic 
challenges. The last time a shutdown occurred, in 1996, as I am 
told, our Nation was enjoying a sustained period of relative 
peace. That is not true today. Today, we are in the 13th year 
of the war in Afghanistan, providing care and benefits to 
veterans of that war, and the war in Iraq as well. Members of 
this latest generation of veterans are enrolling in VA at a 
higher rate than ever before. They, along with the veterans of 
every preceding generation, will be harmed if the shutdown 
continues.
    In brief, in the last 6 months, through 30 September, the 
Veterans Benefits Administration, VBA, reduced the backlog of 
compensation claims, something we have all been working on, and 
prodding, and encouraging them to do better. Well, they have 
begun that delivery, 193,000 claims in the backlog reduced in 
the last 190 days, roughly 190 days, a 31.5 percent increase in 
about a little over 6 months.
    Since the shutdown began on 1 October, the backlog has 
stalled, and in fact has increased by about 2,000 claims. VBA 
has already furloughed more than 7,800 of its employees, half 
of whom are veterans. The shutdown directly threatens VA's 
ability to eliminate the backlog. We have lost ground we fought 
hard to take. Roughly 1,400 veterans a day are now not 
receiving decisions on their disability compensation claims due 
to the end of overtime. If the shutdown does not end in the 
coming weeks, VA will not be able to assure of delivery of 1 
November checks to more than 5.18 million beneficiaries, and 
that accounts for about $6.25 billion in payments that people 
are expecting in compensation, and pensions, and Dependency and 
Indemnity Compensation, DIC, fiduciary, educational, vocational 
rehabilitation and employment benefits, including veterans who 
are 100 percent disabled, surviving spouses, and eligible 
children orphaned by the death of their military or veteran 
parent. Tuition and stipends for over 500,000 veteran 
servicemembers and eligible family members in education 
programs will also stop.
    These are some of the major issues veterans face if the 
shutdown continues. My written testimony includes details of 
other negative impacts, to our IT initiatives, to our National 
Cemetery Administration, whose employees lay to honored rest 
those who have served this Nation, to VA staff offices, and to 
VA employees themselves, especially those who are veterans.
    While some have suggested a series of mini-continuing 
resolutions, or mini-CRs, if you will, as an approach to 
meeting our fiscal year 2014 budgetary responsibilities for 
funding the government, that is not a solution for veterans or 
for our Nation. The budget request submitted by President Obama 
nearly 6 months ago is the result of an extensive, cooperative, 
synchronized effort across all departments and agencies to 
produce a budget request that coherently balanced priorities 
and risks.
    Picking and choosing parts of government to fund would 
ignore two key drumbeats that I have tried to deliver over the 
past 4\1/2\ years. The first is that very little of what we 
work on in VA originates in VA. Much of that originates in 
another department. And then, second, VA's care for veterans, 
and by that I mean health care, education, employment, 
insurance, housing for both the homeowner and the homeless, 
does not occur without significant coordination with DoD, with 
Housing and Urban Development, HHS, Social Security, Treasury, 
Education, Labor, the IRS, Small Business Administration. And 
frankly, it is this collaboration amongst and across the 
government that allows us to be effective.
    And I would add to that, we have a fourth mission, I think 
as the Chairman recalls. Besides our three administrations, we 
have a fourth mission in the event of emergency, national 
disaster, humanitarian requirements, that I must make available 
our capabilities where they are needed. So we work with FEMA 
and DHS. Homeland Security is also part of our day-to-day 
responsibilities. These are not insignificant connections for 
this department. Without them, we are less effective in serving 
veterans, our servicemembers, their families, and our 
survivors.
    And so, these are the facts that I present, Mr. Chairman. 
At a critical time for veterans, everyone at VA, as you said, 
should be focusing on how best to accomplish their missions. 
And so I ask the Committee, and the rest of Congress, to help 
us by resolving this fiscal impasse now, so that VA and our 
Federal partners, on whom we have to rely to do our work, can 
get back to work full-time, fulfilling President Lincoln's call 
to care for those who have borne the battle.
    Thank you, Mr. Chairman.

    [The prepared statement of Eric K. Shinseki appears in the 
Appendix]

    The Chairman. Thank you very much, Mr. Secretary.
    You and I both know that regular order is not the mode that 
we are in today. But regular order in fact requires a piecemeal 
approach of 12 appropriation bills. One hundred and twenty-six-
plus days ago this House, on a bipartisan basis, passed a VA/
military construction bill that fully funded, not just 
partially funded on a short-term basis, which is what folks are 
asking for now, but fully funded VA. Yet that bill languishes 
over in the Senate.
    To my colleagues who may not recall, because it has been so 
long that we sent that bill over to the Senate, there is very 
little difference, maybe a quarter of a percent difference 
between the two bills on VA spending. It could very easily be 
brought forward, and this would be off the table.
    And so my question is and statement is, in years past, 
House and Senate, regardless of parties, and the White House 
have always come together and tried to find a way to prioritize 
how money would be spent, who would be at the top of the list 
as we started to shut the government down and run out of money. 
And today, we don't have that. Even back in the shutdown of 
1995, there was a prioritization, and DoD and veterans were 
taken off the table, which they are not right now.
    So my question, Mr. Secretary is, don't you think VA 
benefits certainly should get the same priority or 
prioritization today as it has in other shutdown situations?
    Secretary Shinseki. I missed the last piece of your 
question, Mr. Chairman.
    The Chairman. Just basically, in years past, we have in 
fact prioritized spending needs. DoD and VA has always been 
basically taken off the table. And my question is, what is 
different this time? And don't you think veterans' benefits in 
fact should be prioritized at a higher level than others within 
our Federal Government?
    Secretary Shinseki. Mr. Chairman, I would just tell you 
this department has benefited from the leadership of the 
President and the leadership and support of the Congress. If 
you look at what has transpired over the last 4 years to our 
budgets, I think we can all be proud of what we have done to 
take care of veterans. And I will always tell you that that is 
a top priority with me.
    But I do understand there is a budget request presented to 
the Congress, there is a process that you referred to that 
requires the passage of a budget. And within that, the 
individual departments are then provided guidance on what their 
budgets will be. I am not sure where the Congress is in that 
process, but I would ask the Congress to provide us a budget so 
that not only this department, but our partners in government, 
on whom we rely to do our mission well, can get on with 
business.
    The Chairman. I think it is important to discuss the 
differences between a budget and an appropriation, because it 
has been conflated in the national media that because a budget 
hasn't been passed, we can't appropriate money. In fact, we 
have done it for a number of years now because we haven't been 
able to come to an agreement on a budget.
    We did pass in this House over 126 days ago now, by a large 
bipartisan measure, and I would hope you would know, or have 
some type of an idea of why the Senate is holding that so 
tight, has chosen not to move that legislation forward. We 
passed four different full appropriation bills. And I am hoping 
that maybe you can help me understand why the Senate continues 
not to act on the full, not a piecemeal, partial bill, but a 
whole funding bill.
    Secretary Shinseki. Mr. Chairman, I appreciate your 
confidence in my ability to sort through this for the Congress. 
I would just claim to be just an average guy trying to do a job 
here.
    But here is what I am facing: I didn't know there was going 
to be a shutdown; I had no idea that this was intended to 
happen; And so the month of September is for me the end of a 
fiscal year. What usually happens is, I am trying to get people 
to tell me how they have finished what I have instructed them 
to do throughout the year with the funds that the Congress has 
provided, generously provided, and then anticipate that I will 
have a budget on 1 October in which to understand how to make 
that transition.
    Because these transitions in the past have been difficult. 
Congress authorizes a carryover opportunity, but it limits what 
I can carry over. And so in one administration, it may be as 
low as 4 percent, in another, it may go as high as 10 percent. 
But these are limitations. I need to understand what we are 
doing to close out properly, so I know what our carryover is 
going to be, so that I can understand that we are meeting 
Congress' intent, and then expecting that I am going to have a 
budget in which to dovetail these activities into.
    It usually takes me about 10 days at the end of a fiscal 
year to be able to bring this to order. So about today, is when 
I would have these factors coming together, and, in fact, this 
week would have been the week that I would have my fiscal year 
2014 execution meetings with the various accounts. I would just 
tell you these factors are coming together daily, and there are 
adjustments here in how much money is available, and the burn 
rate at which those funds will last. And so, we are doing the 
best we can.
    Two things we are doing here--we are trying to keep our 
operations going for as long as possible, where we are allowed 
by exception under the law, to take care of as many veterans as 
we can for as long as possible. The other thing I have to do, 
is make sure I am taking care of our employees so that I am not 
telling people that they are going to be furloughed, when in 
fact they aren't going to be. So there is a period of time here 
not to be alarmist. But at an appropriate moment, when we know 
we are not going to have a budget and we are going to have to 
take other steps, that we will inform our employees that they 
are going to be furloughed. The ones that have been furloughed, 
we have gone through this process.
    But it is not just telling them you are furloughed, close 
the door, and leave. We are going to get a budget here at some 
point, Mr. Chairman. And what I want our offices to be able to 
do is come back and, as soon as capable, be up and running at 
full speed. And that requires us to close out in an orderly 
function. If I would, you know, forgive me, I will fall back to 
my own military experience. At the end of a day, I want 
everyone in a fighting position to organize for whatever might 
happen that night. Grenades in one location, rifles oriented in 
the right direction, left and right aiming stakes, ammunition, 
water, and be prepared. I want us to be in the same position, 
that, when we have a budget, people go back to work, and we are 
up at full speed, so we are taking care of veterans as quickly 
as we can. I don't want to spend 30 days trying to figure out 
how we get back to that point.
    The Chairman. Thank you, Mr. Secretary.
    Mr. Michaud.
    Mr. Michaud. Thank you, Mr. Secretary. And I can understand 
why you can't predict what the Senate will do, or the House, as 
far as that goes. But as I mentioned in my opening statement, 
there are two areas we can solve this. One, the Senate can pass 
the full appropriation bill that we passed about 4 months ago 
to fund all of VA. Or the House can pass the clean Senate CR 
that will get us--unfortunately it is still a CR--but it will 
still move us beyond this particular point. And I understand 
that even with the full MILCON/VA appropriation bill, there are 
still services that veterans will not be able to receive 
because other parts of the Federal Government are not up and 
operating because of the shutdown. And I totally understand 
that. But it is my hope that the bulk of the VA could be taken 
care of.
    My question to you, Mr. Secretary, you had mentioned trying 
to get the staff back up and running once the shutdown is done. 
If, say, today that Congress and the President was able to get 
our act together, how long will it take the VA to get up and 
running full steam ahead? And when will you be able to assess 
some of the damages, particularly as it relates to the backlog, 
that it will take to try to get back on track again?
    Secretary Shinseki. I would say, Congressman, at this 
point, in some sections, hours, to days in others, other 
sections. But the longer we go, then the startup will just take 
longer.
    The fact is, I have indicated that 1 November, I will not 
be able to pay all these beneficiaries who are expecting those 
checks. I need the authorization, appropriations, and a budget 
to be able to do that. And I don't do that independently. In 
order to make those claims decisions, I link into IRS and 
Social Security, with the Department of Education, Small 
Business.
    So I would say that what is best for veterans, and for all 
of us right now, is a budget for the entire Federal Government. 
Let us get back to work. The sooner we do it, the faster I get 
back up to full speed.
    Mr. Michaud. We did, a couple years ago, passed advanced 
appropriations for the department of VHA. Are there some 
components of that, even though they have advanced 
appropriation, that you are not able do because of IT or some 
other components of the VA that would actually hinder VHA in 
providing the services that they need?
    Secretary Shinseki. Well, we have had these discussions in 
the past, Congressman. And you know that we are a little bit 
bifurcated here. We get the generosity of the Congress advanced 
appropriations for our Health Administration, so they are fully 
funded on 1 October.
    So the question how much of an impact? You know, 80 percent 
of VA is functioning because our hospitals are open, our 
community-based outpatient clinics are seeing patients, as are 
our vet centers and our mobile clinics. And so that will 
continue, and the impact to them is negligible.
    Where we get a little bifurcated is where we have 
authorization to do something with a facility and then we have 
to wait for our IT budget to clear, and then we marry the two 
up. It is something we have worked in the past. Are there 
easier ways to handle this? I think down the road perhaps 
worthy of discussion. But for right now, that would not be able 
to turn on checks on 1 November, and that is my great concern 
here.
    And I don't want to be alarmist, but I want to speak for 
the veterans who are looking in on this. Not only do we have a 
large number of beneficiaries that are looking for those 
checks, I have veterans myself that I employ, a third, over 
100,000 veterans. A number of them are going to be subject to 
furlough. And so, if they are furloughed and they are also 
recipients of disability checks, their resources go to zero. 
And then, I have the responsibility of trying to figure out how 
to keep them from becoming homeless. And HUD plays in that 
game. So this is a much larger challenge for us.
    Mr. Michaud. Thank you very much. I yield back.
    The Chairman. Mr. Denham.
    Mr. Denham. Thank you, Mr. Chairman.
    Mr. Secretary, as the Chairman outlined in his opening 
statement, recently the House passed the Honoring Our Promise 
to America's Veterans Act that, if signed into law, would 
provide immediate funding for critical veterans benefits and 
services, including disability claims, education, training, 
many of the items you discussed in your testimony. But you also 
made an important point when you stated that many services 
veterans rely on are not housed directly within VA, like the 
vets employment programs, the Small Business Administration 
loans are two of those examples you cite in your testimony. 
Could you expand on other types of these programs that would be 
outside of that bill that we passed that is now sitting in the 
Senate?
    Secretary Shinseki. You mean other departments that are 
impacted by this?
    Mr. Denham. Impact our veterans that are outside of the VA 
bill.
    Secretary Shinseki. Sure. Our claims processing requires, 
by law, our responsibility to check with the IRS for income 
data, with Social Security for other benefits. And so that is 
part of the process that we go through in completing our 
claims.
    Mr. Denham. Are you saying then that even if the Senate 
passed the VA bill and the Senate were willing to sign that VA 
funding bill, that there would still be some challenges because 
of the interactivity with the IRS and their furloughs?
    Secretary Shinseki. Exactly. It depends on the issue, 
Congressman. It could have greater impact than on others. But 
the impact is there. Education. Whether it is 9/11 GI Bill, 
Montgomery GI Bill, vocational rehabilitation and employment, 
there are ties that go to the Department of Education. So we 
are not an independent operator here. Employment, veterans 
employment, a high priority for us and for all of you. 
Department of Labor plays in that. And as you indicated, Small 
Business Administration does play as well.
    Mr. Denham. Thank you. And second question, you and I have 
talked several times about French Camp, a facility that borders 
mine and Congressman McNerney's district, affecting all of our 
veterans. The ongoing construction projects. Can you outline 
what a protracted or a long delay in funding, or a long--a long 
delay in funding would affect both our ongoing construction 
projects, the staff at the VA Office of Construction and 
Facilities Management, or the planning for future VA 
construction projects?
    Secretary Shinseki. Congressman, if I might, I will get 
back to you with specifics on French Camp. It is just a little 
more detail than I had time to brush up on. But let me just say 
that in the office that overwatches construction, they also 
have acquisition, logistics, and construction. So depending on 
which of those topics, they are variously affected by the 
shutdown.
    In the case of construction, for those construction 
activities that are underway, those will continue. Our 
oversight responsibilities will be reduced. But we will 
continue to provide oversight as best we can, ensuring that the 
requirements of the contract are met. Here I am talking about 
52 projects and about $12 billion of construction. And the 
major projects will continue.
    Design, on the other hand, about 20 projects may be 
delayed, and may be significantly delayed depending on how long 
this process goes. And so your question about French Camp, I 
just need to find out exactly where we are in this process.
    Other aspects of this, major leasing actions, about 33 
projects liable to be delayed. And here, examples would be the 
Greenville, North Carolina, outpatient clinic, South Bend, 
Indiana, community-based outpatient clinic. Butler, 
Pennsylvania, HCC. And so, you know, I would like to see these 
uninterrupted, but there will be some delays here. And the 
significance will be determined by how long the shutdown 
continues.
    Mr. Denham. Thank you, Mr. Secretary.
    I yield back.
    The Chairman. Thank you.
    Ms. Brownley.
    Ms. Brownley. Thank you, Mr. Chair.
    And thank you, Mr. Secretary, for being here with us today. 
And I certainly agree with your remarks on the importance of 
passing a complete and clean continuing resolution that will 
provide the certainty, I think Americans are looking for in 
their government, and their leaders.
    As you know, last week the House passed H.J. Resolution 72, 
which was an attempt, I think, to provide some funding for our 
Nation's veterans in the middle of this debate that we are 
having. I think that particular bill still underfunded a lot of 
different areas. And I wanted you, if you could, to just sort 
of speak to those.
    You have already mentioned, I think, a couple. But if you 
could comment a little bit more specifically around, let's say, 
the medical and prosthetic budget that I don't believe was 
funded in that resolution. You have mentioned something, I 
think a little on the technology piece. The Office of the 
Inspector General. The grants to VA homes, grants to State 
cemeteries and the like. If you could comment a little bit more 
specifically about the impacts there.
    Secretary Shinseki. Sure. As I indicated earlier, with 
advanced appropriations for our health care administration, a 
large portion of VA is fully funded. I would say well over 70, 
approximately 80 percent, is funded. And those activities 
continue. There are pieces of our medical activities that don't 
come under advanced appropriations. And so, you have cited a 
couple. Research is another area. And so those activities would 
stop until we had a full budget.
    Ms. Brownley. Thank you. And just to follow up on an area I 
don't think we have spoken too much about so far, having to do 
with the GI bill, and what that will mean to veterans who are 
enrolled in colleges and universities across the country, does 
that mean that they can't continue, they need to drop out? How 
are we going to handle that?
    Secretary Shinseki. So what I would say here is two 
accounts I am dealing with. One is the carryover appropriations 
of money that were not expended in 2013. This carryover in the 
Benefits Administration, I think roughly $40 million, was used 
to keep that office open as long as possible to take care of 
all the various categories of claims: education among them, 
disability, pension, compensation, vocational rehab and 
education claims.
    That money, that was exhausted on 7 October. So on the 8th, 
we furloughed over 7,800 of the workforce in the Benefits 
Administration. We still have about 13,000 people working, 
because we have under the law declared them excepted, and they 
are excepted because in the other account, the mandatory 
funding account, which currently has money in it, that will end 
before the end of the month. And so we have these folks 
processing claims. And where it is appropriate to make a 
decision today and pay today, retroactive claims, for example, 
to pay that back pay, if you will, we are doing that.
    But every payment we make reduces the amount of mandatory 
funds, and before the end of the month, this account will be 
exhausted. At that point, these 13,000 or so people who are 
doing this will have no reason to continue to function because 
the necessary implication clause that allows them to work will 
be exceeded when the mandatory account is exhausted. And at 
that point, they will be furloughed, and our Veterans Benefits 
Administration will be reduced to, you know, something over a 
thousand, maybe less than 1,500 folks, who will continue to 
operate in our 56 regional offices and our call center.
    And the reason for that is, every veteran who submits a 
claim, we are required to accept it, date stamp it, so there is 
a place in line for them to be recognized when funding is 
restored. For education claims, students who are currently in 
school, and as those come up, we will pay those like we do the 
retroactive claims. But at some point, that is a draw on the 
mandatory account, and that will end before the end of this 
month. And I will be required to furlough a large portion of 
that 13,000 workforce.
    Ms. Brownley. Thank you, sir. And again, I appreciate you 
being here.
    I yield back.
    The Chairman. Thank you, Ms. Brownley.
    Mr. Runyan, you are recognized.
    Mr. Runyan. Thank you, Mr. Chairman.
    Secretary, thanks again for your testimony. You kind of 
answered a couple of my questions over there. But what is the 
last day of this calendar month that you can process all award 
payments for timely receipt on the first of the month?
    Secretary Shinseki. It is again. It will be later this 
month, towards the end of the month. You know, the exact day is 
going to be determined by, pardon the term, the burn rate here. 
And once the mandatory account is no longer solvent, then we 
will stop.
    But we are processing claims as fast and as hard as we can, 
as we were before 1 October, to ensure that we get as many of 
those claims ready to be paid as soon as the budget is 
provided. And that is the description I give our folks about 
setting up your fighting position. When the budget is provided, 
we go to work and we start, you know, paying benefits.
    Mr. Runyan. Has there been any discussion within your 
department and/or your staff on prioritization of claims, i.e. 
fully disabled, that type of thing, as you get near that 
deadline come the first of the month?
    Secretary Shinseki. Well, there are a good portion, I would 
say over 400,000, 100 percent disabled veterans who will be 
affected by our inability to deliver checks on 1 November. Five 
million beneficiaries, over 5 million, 5.18 million, I think is 
a closer number. But there are a good portion of them, as I 
indicated, who are 100 percent disabled. And amongst them there 
will be survivors, surviving spouses, children orphaned by the 
death of their servicemember or veteran parent.
    Mr. Runyan. But there has been no discussion of priority 
there? You are just doing it as they go through the process?
    Secretary Shinseki. Well, we are operating at, while we 
have the funds to operate, we do prioritize in our processing 
of claims for financially challenged veterans or claimants, 
Medal of Honor recipients, former prisoners of war, terminally 
ill. And then we add to that fully developed claims, because 
they are easier to process.
    But in the processing business, that is where we give 
priority. And then we work the remainder of the claims. And I 
would say in September, we produced the biggest production 
output since I have been here, 128,000 claims. But once it goes 
into the payment process, Congressman, then there is a sequence 
that goes along with how they have been put in line.
    Mr. Runyan. Going to the--hopefully when we get out of this 
mess--obviously chairing the DAMA Subcommittee here, dealing 
with the claims is a project. Can you provide information on 
VBA's funding and the future plans for use of mandatory 
overtime to address the backlog? Mandatory use in the future to 
impact the backlog.
    Secretary Shinseki. Mandatory overtime?
    Mr. Runyan. Yeah.
    Secretary Shinseki. We use mandatory overtime. It is a 
device that has been used over the last several years when we 
see an opportunity, and we want to get more production because 
for some reason, we have gotten a little behind. And so in May, 
we declared we were going to do this until the end of the year.
    Our 2014 budget has $50 million in it for overtime, and 
that is essentially what I was counting on, on 1 October, to be 
able to transition to that. So we do have a plan. We do need 
that piece of the budget recognized so we can resume our 
overtime option.
    Part of what we, as we began to close out the year, before 
we knew that a shutdown was going to occur, and as we were 
trying to assess how much carryover we were going to have, we 
thought we were going to be able to carry over $40 million to 
apply, to add to the $50 million that is in the budget, to give 
us a good run at the year of additional overtime, so the 
numbers would be up there, closer to $100 million, $90 million 
or so. That $40 million was used to keep our operation going 
for as long as possible, to get as many claims lined up before 
the end of the month.
    Mr. Runyan. I thank you for that. Because we had a hearing 
about some difficulty with Legislative Affairs a couple weeks 
back, and have had issues with getting an answer like that from 
them. So I appreciate that.
    Yield back.
    The Chairman. Thank you, Mr. Runyan.
    Ms. Kirkpatrick, you are recognized for 5 minutes.
    Mrs. Kirkpatrick. Thank you, Mr. Secretary.
    One of the important projects that the VA has been working 
on is the transition to a paperless system for claims benefit 
processing. And yet in your written testimony, you say on 
Monday, 2,764 OIT employees were furloughed. And then the 7,800 
VBA employees furloughed yesterday.
    Would you describe for me and for our Committee what impact 
those furloughs are going to have on that transition to the 
paperless system? Right now, give us a snapshot right now this 
week, and then what it looks like if this shutdown continues 
into November.
    Secretary Shinseki. Very important question. Congresswoman, 
as you know, we have set a long-term goal of ending the backlog 
in 2015. Key to that has been the automated system we have put 
into place, and we finished fielding that 6 months ahead of 
schedule, in June. That is fielding the sort of, the basic 
model. And much like any IT operation, you have newer versions 
that add capability, give you more robustness, and then reduce 
the workload.
    So all of those plans that have been in place, we have had 
to put a hold on. There is no new development work being done 
for VBMS. And there is much to be done if we are going to get 
this up to where we expected we would have it, to be able to 
hold our target of ending the backlog in 2015. I haven't given 
up on that. I am hoping that we will have an opportunity here 
to get back on track. But the longer we go, the more difficult 
that becomes.
    What I would like to assure you, though, is that I am 
allowed by the rules to maintain what we have. I can't add, I 
can't make it better, I can't increase capability. But I can 
and will maintain the operation. So if computers are having 
problems, I have sufficient workforce to be able to bring them 
back online.
    Mrs. Kirkpatrick. But basically, what you are saying is any 
progress in that project has come to a screeching halt.
    Secretary Shinseki. That is correct.
    Mrs. Kirkpatrick. And let me just ask you, Secretary, you 
are a general with an outstanding, distinguished combat record. 
And, you know, Congress voted to pay Federal employees when the 
shutdown ends. So they are going to be paid. Does it make any 
sense to you to not allow them to work?
    Secretary Shinseki. I can't think of any. And they are 
ready to work. I would just refer to the folks in the Benefits 
Administration who have brought this backlog down, 193,000 
claims in about 190 days. Lots of folks wondered whether we 
were going to be able do it. VBMS will be important to that 
effort, but VBMS is just coming online. So all of this work was 
done by good folks in the benefits administration. I would 
speak for them. They are disappointed that the ground they 
gained is being lost day by day.
    Mrs. Kirkpatrick. I just want to thank you for your 
leadership under the department, and thank your employees for 
their good hard work. Thank you.
    And I yield back.
    The Chairman. Thank you very much. I would like to remind 
my colleague that only the House has passed a bill that would 
allow for furloughed workers to be paid. The Senate continues 
to hold fast in not helping us resolve this particular 
situation.
    Dr. Benishek.
    Mr. Benishek. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for being here today.
    I, like all of my colleagues, would like to see this 
shutdown put behind us as soon as possible, and frankly, wish 
that the appropriation process went on in regular order, that 
we would have passed the appropriate appropriations for all of 
the segments of our government. I am happy that the House has 
passed the military construction and VA bill in a bipartisan 
fashion, and hope that the Senate acts on that. And frankly, I 
think that the entire government should be funded in that usual 
fashion, that this policy of continuing resolution is just a 
bad policy. But nevertheless, you know, I understand that we 
have to get something done.
    I had a couple of questions about the communication between 
the VA and the Committee here. As I understand it, and correct 
me if I am wrong, is that apparently the department issued a 
notice in late September that 95 percent of VA employees would 
be either fully funded or exempted from furloughs. Now, is that 
incorrect?
    Secretary Shinseki. I would ask for the opportunity to go 
and retrieve whatever this announcement you are referring to. 
But I would say that if you look at VA as a whole, 90 percent 
of us are in VHA, and they are fully funded. And so as of 1 
October, our hospitals are seeing patients, community-based 
outpatient clinics are operating. So if this is the 95 percent 
that is being referred to, I would say I can understand why 
that information was provided.
    But again, Congressman, trying to close out 2013 and 
understanding what kind of resource capability we are going to 
have, expecting that we are going to have a budget on 1 
October, knowing that VHA had a budget because it was passed 
last year through the advanced appropriations provision that 
you all have provided. So I think the 95 percent here is 
referring to VHA because of advanced appropriations.
    Mr. Benishek. Yeah, okay. And, frankly, I tend to agree 
with you on the advanced funding issue. Frankly, I don't see 
why we don't have 2-year budgeting for everything. You know, it 
would allow us more time to get the appropriations done. But 
the President on September 30 indicated that some PTSD 
counseling would be affected by the shutdown. Is that true?
    Secretary Shinseki. I would say we are open for business at 
VA. And I believe, as I have said, we have ties to other 
departments. The IHS and HHS, the Indian Health Service, we 
have veterans being served there who, if those operations are 
not funded, are not being seen for any variety of requirements, 
PTSD being one.
    Mr. Benishek. All right.
    Secretary Shinseki. Alaskan natives who are veterans that 
we provide services to through either the consortium there or 
through IHS are probably not being seen. And that is why I say, 
we can focus on VA as long as we understand that there is a 
broader group.
    Mr. Benishek. Right. And understand that the cooperation 
with other departments is going to be hindered by this 
situation. There is no medical centers being shut down, though, 
right? All the CBOCs are going to be open. That is correct. Is 
that right?
    Secretary Shinseki. There is one that is affected, and that 
is the North Chicago Lovell Health Care Center. It is a joint 
initiative between the United States Navy and VA. It operates 
off a joint account in which we each contribute dollars. So 
that is affected.
    Mr. Benishek. Why is that being affected? I thought we 
funded, the President signed a bill that funded the military.
    Secretary Shinseki. The authorization to continue to fund 
that is the issue. However, we have excepted all of the 
civilian staff, excepted meaning that they will continue to 
work, continue to see servicemembers and veterans and families. 
And then, we will look for an opportunity then to make right 
their compensation.
    Mr. Benishek. Okay. Well, I know I would really like to get 
this behind us. And I take this opportunity to urge my Senate 
colleagues to come to the table and let's get this figured out. 
So thank you very much.
    I am out of time.
    Secretary Shinseki. Thank you.
    The Chairman. Thank you, Dr. Benishek.
    Ms. Kuster, you are recognized for 5 minutes.
    Ms. Kuster. Thank you very much.
    And thank you, Secretary Shinseki, for being with us today.
    My question has to do with the vet centers and the services 
that in my district in New Hampshire are particularly valuable, 
the counseling, the group therapy, and just having a place to 
go. And I am just wondering where this falls in the shutdown.
    Secretary Shinseki. All 300 vet centers will continue to 
operate. They are covered under the Health Administration's 
appropriation. So they are funded for the year.
    Ms. Kuster. Okay. Thank you.
    And then my next question has to do with the November 1st 
payments. Could you give us a more accurate sense here? I mean 
we very much want a clean continuing resolution to get the 
country back to work, get the government back to work. But each 
day that goes by seems to be critical in this. I would imagine 
with the number of checks that go out there is a process and a 
procedure that takes a period of time. Could you give us a 
sense--you have talked about the end of the month--could you 
give us a sense of the number of days that a delay in reopening 
the government would cause a delay in those payments being 
received after the 1st of November?
    Secretary Shinseki. Sure. The mandatory account, it is the 
account against which I am writing checks, so to speak, 
processing claims and having them ready to be executed, but as 
that account has demands written against it, it is exhausted at 
some point before the end of the month. And the reason I can't 
be more specific is the rate at which I am able to do this.
    But before the end of the month, the mandatory account will 
not support payments in November, even though I have checks, 
you know, lined up to draw against it. I think I indicated 
$6.25 billion of requirements, and I will be down to about $2 
billion. And if I can't pay it all, it stops.
    And so on 1 November, right now, unless I can provide 
mandatory funding to make the account solvent again, 1 
November, I will not be sending checks out.
    Ms. Kuster. And could you give us a sense of the scope of 
that, the types of people whose lives will be irreparably 
harmed and sort of the categories and the numbers of that 
devastation?
    Secretary Shinseki. I think I gave sort of a rough 
population here of 5.18 million beneficiaries. And these are 
compensation payments, these are pension payments, these are 
education payments, and vocational rehabilitation and 
employment payments as well. And within this category are 
veterans. There are also servicemembers, because we have active 
duty members who participate in some of our programs. We have 
surviving spouses and children who have lost parents.
    Ms. Kuster. And I know you can't speculate as to people's 
lives, but would you say that these are people that generally 
don't have a lot of savings to fall back on, that missing this 
type of disability check or this type of compensation check 
could really set them back?
    Secretary Shinseki. Our eligibility for VA benefits is 
usually income-based. And so, I would say that a large portion 
of the beneficiaries we service are lower waged and are in need 
of our help. There will be those who, by virtue of the severity 
of their combat injuries, will qualify because of that. But by 
and large, our patient population is older, sicker, and in need 
of support.
    Ms. Kuster. Thank you, Mr. Secretary.
    And I yield back my time.
    I hope that--I appreciate you coming today, and I hope that 
your testimony will cause all of us to redouble our efforts to 
get the government back to work. Thank you for your service.
    The Chairman. Mr. Secretary, did I hear you say that 
disability is income-based, or--
    Secretary Shinseki. No, I said there are some, because by 
virtue of the severity of their disabilities, come in at a 
higher category here--
    The Chairman. So people--
    Secretary Shinseki.--but in the broad categories.
    The Chairman. So people with shaving bumps, or sleep apnea, 
or hemorrhoids, or all of those disabilities that are out there 
today, that is--they get that regardless of the income, 
correct?
    Secretary Shinseki. Well, Mr. Chairman, you are getting 
into some detail here that I will probably want to give you a 
better answer for.
    The Chairman. Okay.
    Secretary Shinseki. I would just tell you that I will do my 
best to answer your questions on some of those issues, but 1 
November, no mandatory account, 5.18 million beneficiaries do 
not receive checks. And in response to the Congresswoman's 
question, a large portion of them are compensation--or 
beneficiary checks are crucial to their being able to have 
order in their lives.
    The Chairman. Mr. Huelskamp.
    Mr. Huelskamp. Thank you, Mr. Chairman, I appreciate the 
opportunity.
    And I really find this a difficult question to ask you, Mr. 
Shinseki, given the discussion we have had, but do you think 
Senator Reid doesn't like our veterans or the VA in particular?
    Mr. Walz. Mr. Chairman--
    Mr. Huelskamp. It is a tough question. The reason I ask 
that, Mr. Secretary, is that, as the Chairman has indicated, 
127 days ago, the U.S. House passed the appropriations; 105 
days ago, the Appropriations Committee actually sent it to the 
floor of the U.S. Senate; and for 105 days now, Senator Harry 
Reid has refused to bring the appropriations to a vote in the 
U.S. Senate. Have you visited with the Senator and asked him, 
could you please, Mr. Reid, bring that to a vote in the U.S. 
Senate?
    Secretary Shinseki. Mr. Huelskamp, I am happy to answer the 
question about Senator Reid. Personally, I think he very highly 
values veterans.
    As to why we are unable, Congress is unable to do its 
business, I will leave to the Members to discuss.
    Mr. Huelskamp. Okay. Well, and I appreciate that, and you 
mentioned Congress, but it is an issue in the U.S. Senate.
    And have you visited with the Senator, to see if the 
appropriations are--I know have been disappointed in the House, 
that 4 out of 12 appropriations bill is all we passed through 
the U.S. House, and that includes your budget. That means 8 out 
of 12 have not passed here, but 12 out of 12 have not passed in 
the U.S. Senate, and that has been the case now since 2009.
    Is there any indication in your visits with the Senator 
that they would consider at least passing your appropriations, 
Mr. Shinseki, and I appreciate the work you have done to 
continue to meet the needs of our veterans in this shutdown 
period.
    Secretary Shinseki. To your specific question, have I 
visited Senator Reid over this, I would answer I have not.
    Mr. Huelskamp. Okay.
    Secretary Shinseki. That is not something that I would 
ordinarily do. I deal with this Committee and with the 
appropriate Committee in the Senate when it comes to my budget, 
and that is where the work is done.
    Mr. Huelskamp. And I haven't compared the budget that came 
out of the Senate Appropriations Committee compared to what 
came through the House by a pretty wide margin, and hopefully, 
it would meet your needs. I would encourage, perhaps, that 
conversation to take place.
    I would ask you specifically about cemeteries. Are all of 
your cemeteries still open for business, and would they be 
impacted in late October, like you have indicated for other 
programs?
    Secretary Shinseki. Congressman, that is a great question. 
I will tell you that our operations will continue. At some 
point here in the next days to weeks, we will expend our 
carryover moneys for NCA, and we will be furloughing a good 
portion of the force.
    However, our cemeteries will go into a modified burial 
schedule, which means, we will continue taking care of families 
and burying our honored, but it won't be at the rate that we 
had planned or would like.
    Our cemeteries will be open for our normal hours, which is 
sunrise to sunset. You may see some of our maintenance 
standards go a bit because we won't be able to maintain the 
high standards we would like to have, but that is all 
retrievable once we have a budget.
    But the focus here is on taking care of families on a most 
painful day for them and making sure that they feel that their 
veteran is respected and has been accorded a dignified burial.
    Mr. Huelskamp. Thank you, Mr. Secretary.
    I appreciate that assurance, and your current work to make 
sure that is available for our veterans and, obviously, their 
families as well. I mean, you have seen the images of other 
Federal places and locations that have been barricaded to our 
veterans, but I want to make certain we keep the cemeteries 
open, and I appreciate your work in doing that and making 
certain that does occur.
    And I yield back my time, Mr. Chairman.
    The Chairman. Thank you.
    And I think it does go without saying that we all care 
about the veterans of this country, and what we do have is a 
failure to communicate, negotiate. And there has been a 
breakdown in the institutional process of how appropriation 
bills are in fact passed through both Houses of Congress.
    If I am not mistaken, I think the VA MilCon bill that has 
been passed out of the House only had four dissenting votes. So 
suffice it to say that it was an extremely bipartisan piece of 
legislation.
    Mr. Walz, you are recognized.
    Mr. Walz. Well, thank you, Mr. Chairman.
    I would like to echo that.
    I would like to give the gentleman 30 seconds to apologize 
to Senator Reid if he would like to do that. That is beneath 
this Congress and certainly beneath this Committee on 
questioning someone's commitment to veterans.
    We may have differences on policy and ideology. We 
certainly don't have differences on love of this country. So I 
would give my 30 seconds to the gentleman if he wishes to claim 
it.
    Mr. Huelskamp. Thank you, Mr. Walz, and I was asking the 
question, given that it is very clear, as the Chairman has 
indicated, that Senator Reid controls the calendar and has the 
opportunity to move that bill to the floor. And since this 
shutdown has occurred, unless there was some recorded votes 
yesterday, we have had 7 days in which there has been not a 
single--
    Mr. Walz. I reclaim my time.
    I am disappointed, to say the least.
    I hope that goes on record. One of the things I would say 
about this, is this Committee, and I am incredibly proud to 
serve on it, is one of the few places that still works in 
Congress. The collaboration in here is incredible. The work 
that is done down to the granular level by Subcommittees 
actually have power, and that is a testament to you, Mr. 
Chairman, that you give that power to people.
    And I sat in this very chair arguing and making the case 
for advanced appropriations on VHA with my colleagues, and we 
did that. That was progress. We have sat here and made 
progress.
    You know, Mr. Secretary, the work you have done, I am 
incredibly proud of it, and I have said it time and time again. 
I am your staunchest supporter but your harshest critic. When 
you get it wrong and something happens in Pittsburgh, we bring 
it up here, and we discuss it, and we figure out how to make it 
better. And the conscience that sits behind you representing 
millions of veterans expects that of us. And it still works and 
what is so disappointing about this is, and what is so 
disappointing when we get into this, we are wasting valuable 
time and resources by a self-inflicted wound that should be 
going toward our veterans. And it is so frustrating.
    And what happens, and I appreciate my colleagues on this, 
but here is what happens: It starts to be cancerous into this 
Committee. Last week, when the bill came up on the veterans to 
try and do them in the CR and to try and make the case, be very 
clear about this, you are trying to find ways, and I respect 
that, but in that bill, and Mr. Runyan was out in Preston and 
held a field hearing and made a great case for a veterans' 
cemetery that has been needed for decades in southern 
Minnesota.
    There is a grant process that you administered, Mr. 
Secretary, that ranked us number one. Three weeks ago, we got 
that notice, and there was a thank you from thousands, 56,000 
veterans in southern Minnesota and northern Iowa, that were 
going to get that.
    Last week's bill zeroed that out.
    Now, I know you didn't do that on purpose, to stick it in 
the eye of my veterans, but I can't support that. But within 
180 seconds of my vote, the campaign committee, on the 
Republican side, sent out an attack that I don't support 
veterans by not doing that. There is lots of reasons to tell 
people not to vote for me. Not supporting veterans isn't one of 
them. We worked as partners to get that right. And that is 
where we get the point where people's disgust, people's anger, 
people's frustration, we can come together.
    And the continuous going back and forth, the continuous 
question, I don't question a single person's commitment to our 
veterans, or love of their country. I think you are wrong on 
some of the policies. This is the place to debate that; not a 
Martial Law rule that goes to the floor with no amendments, so 
the campaign committees can send out an attack ad and try and 
win an election while veterans are sitting at home saying, Why 
do I hate Congress? Do I need to see any more proof?
    So, Mr. Secretary, I am frustrated you are here. I 
appreciate you trying to go at this. I understand where some of 
the questions are going, that this wouldn't be just so bad if 
you just prioritized differently and picked the stuff I like 
and not the other stuff, but the questions I was going to ask, 
you answered. Interagency collaboration is breaking down. That 
is incredibly important. It helps move forward. IT, and as it 
impacts electronic medical records that we fought together, for 
7 years, I have been sitting here trying to get that right, 
that progress is going backwards. So I don't really have any 
questions for you.
    I trust that you--and the thing I would say about this is, 
the comment that we shouldn't be talking about furloughs or 
whatever, the VA is an organization of people. Furloughs are 
the most critical issue in that. There is a reason that the VA 
health care is the best in the world. It is because of the 
people. And when those people have uncertainty, those people 
are laid off, those people are not there, it can impact. That 
is why we advance appropriated.
    But you know it yourself; Mr. Runyan asked a beautiful 
question--I am in 100 percent agreement with him--not having 
the IT budget advance appropriated has a beautiful MRI machine 
unhooked in New Jersey that can't help patients in some cases, 
brought that up. That doesn't make any sense, and we should be 
today talking about that.
    And I compliment and end with, the Chairman and the Ranking 
Member have approached this the right way. The fix to this, and 
the way to remove veterans, and we anticipated 3 years ago when 
we did advance appropriations, remove veterans from this fight. 
Don't allow people to grandstand and use them as pawns and 
continue to work to go forward. Their suggestion on the 
advanced appropriation on the full VA funding is the way to go.
    And with that, I thank you and I yield back.
    The Chairman. Thank you very much, Mr. Walz.
    If I can ask the Committee's indulgence for just one second 
and recognize Ms. Kirkpatrick for an introduction.
    Mrs. Kirkpatrick. Thank you, Mr. Chairman.
    I just wanted to welcome to the Committee Mr. and Mrs. 
Somers, who are in the back of the room. Their son, Daniel, an 
Arizona veteran committed suicide earlier this year. We are 
going to be doing a roundtable with them in this Committee room 
at 1:30, and so I just wanted to acknowledge their presence in 
Committee.
    Welcome, and invite everybody to participate in the 
roundtable at 1:30.
    I yield back.
    The Chairman. Thank you very much, Ms. Kirkpatrick.
    We welcome the Somers to the Committee room, and to 
Congress. We certainly add our condolences to you, and thank 
you for your son's service, and we are extremely sorry for your 
loss.
    With that, Mr. Amodei, you are recognized.
    Mr. Amodei. Thanks, Mr. Chairman.
    Mr. Secretary, going back to the cemetery thing for just a 
second, under the heading of triage until something changes, do 
your present procedures allow, on a case-by-case basis, if 
there is private funding available, to go ahead and either 
compensate the VA personnel at cemeteries to perform burials in 
a timely manner? Is there anything that would prevent if 
somebody said, Listen, we want to pay the expense to go ahead 
and do this in the normal, instead of warehousing people? Is 
there an ability, is there anything that prohibits that from 
happening?
    Secretary Shinseki. Congressman, I am not aware that there 
is anything that prohibits that. But again, we try to serve all 
the veterans that come to us in as equitable manner as we can, 
at least the appearance of equal treatment. And so just let me 
research that and come back to you.
    What I will tell you is, we continue our burial operations, 
just at a rate less than we are accustomed to. Last year, 
122,000 veterans were laid to rest.
    Mr. Amodei. Well, and I appreciate that.
    I am just saying, if an instance develops somewhere in a 
country at a cemetery where somebody says, it is going to be a 
few weeks and they say, we will go ahead and incur the expense, 
or somebody comes forward and says, we will incur the expense 
to have it happen in 3 days from now, or something like that, 
it is not something--or I guess my question that you will get 
back to me on is, there is nothing that prohibits an infusion 
of funds from a non-appropriated private source to allow 
somebody to do that in whatever the customary manner is in the 
instance?
    Secretary Shinseki. Congressman, my guess is, if it were 
permitted, I would be doing it now. My guess is that these are 
funded positions, and people have been put on furlough because 
of the law. And I want to be careful here that I don't suggest 
that we have ways to work around it. But I will take a look at 
it.
    Mr. Amodei. Well, and I appreciate it. When you look at it, 
make very certain it is at no cost to the government, so it is 
reimbursement for whatever the costs are, so if furloughed 
people have to be brought back at non-government expense, then 
there better be a pretty long opinion that says, no, we will 
not allow somebody to pay our folks to inter these people in 
the normal course of events, whatever that expense may be.
    And with that, I will yield back. Thank you very much, Mr. 
Secretary.
    Secretary Shinseki. May I just conclude this thought, Mr. 
Chairman?
    The Chairman. Yes.
    Secretary Shinseki. I would say that the law directed 
furlough, and it is less the cost, but it is the decision that 
drove us to do this, and I want to be sure that I am clear on 
the law before I answer you. It is less how much it costs. I 
think there is a requirement for me here to be in compliance.
    Mr. Amodei. Well, then, if I may, Mr. Chairman to that, I 
think there is also a requirement for you to look at the 
overall mission, which is bigger than the law. So when you look 
at those laws, I get the furlough. I just want to make sure 
that everything in VA is looked at, so that those trying to be 
interred in a cemetery get the full benefit of all of the laws 
before the little situation that we are in now. Thank you.
    Secretary Shinseki. I am happy to do that.
    The Chairman. And Mr. Secretary, I know we are still in a 
very fluid situation, but we reached out and asked, you know, 
we were talking about PTS and Indian Health Service and whether 
or not they could get their health provided there. The IHS 
document we have says that employees at the Indian Health 
Service will provide direct health service to tribal citizens, 
and will largely be unaffected by the shutdown, and that they 
would continue to provide direct clinical health care services 
as well as referrals for contract services that cannot be 
provided through their clinics.
    So, you know, again, we are just somewhat confused as to 
the comment that was made in regard to post-traumatic stress, 
which I think everybody on this Committee is very concerned 
with. And I get it. Your statement that you came in here with 
today, paints the worst possible picture that is out there. But 
in your statement, it does not talk about the hundreds of 
thousands of VA employees that are still working and the health 
care that is provided. So we just want to be honest with the 
questions and the comments that are provided. I am not saying 
that you were not. I am just saying that there was an inference 
earlier on that veterans with post-traumatic stress would not, 
in fact, get their treatment and we are finding that there 
appears to be no corner anywhere in which they will not have 
that treatment provided to them.
    Mr. O'Rourke, you are recognized for 5 minutes.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for the presentation and your 
answer and responses to our questions and statements so far. I 
think they have been helpful.
    I wanted to add to a comment you made about the VA and 
veterans being dependent on other Federal departments and 
agencies that may or may not be funded in a piecemeal mini-
continuing resolution approach. I want to note that there are 
nearly 600,000 veterans who work for the Federal Government and 
that constitutes nearly 30 percent of the entire Federal 
workforce. So these men and women who have served our country, 
who are being furloughed or who are working without a clear 
idea of when they are being paid, are being hurt regardless of 
what we are able to do when it comes to funding the VA and the 
different agencies and departments within the VA.
    That is especially important to me as a Representative for 
El Paso, Texas, where we have the fifth highest concentration 
of Federal employees of any community in the country; 43,000 
people that I represent work for the Federal Government. And 
you know, if that 27 percent holds true, well over 10,000 of 
them are veterans who are being affected by this current 
shutdown. So I think it adds to the point that you made that we 
cannot afford to look at this on a piecemeal basis.
    And when I look at the options to get out of this, I want 
to, in the spirit of cooperation, join my colleagues in urging 
the Senate and our Federal Government to move forward on 
advance funding for military construction and Veterans' 
Affairs. I think that is critical.
    In the short term, I think our best option is what everyone 
refers to as a clean-funding bill or a clean CR, that funds all 
of your services and programs and personnel at a sustainable 
level. The piecemeal approach that we saw last week, and I 
appreciate those who wanted to address the issue that way, but 
it had zero dollars for medical and prosthetic research, no 
funding for the National Cemetery Administration, no money for 
general administration, information technology, at a point 
where we are trying to get veterans who want to file fully 
developed claims to do that online because when they do that, 
their wait time which is now 450 days in El Paso, comes down 
under 100 days.
    And if we are not funding IT, we are not helping them to 
get the response that they need, and that they deserve, and 
that they have earned. Construction on major projects and minor 
projects is zeroed out, as are grants to state VA homes and VA 
cemeteries. That is why I support a clean funding bill, no 
strings attached. Let's fund the entire Federal Government, 
perhaps on a short-term basis, where we can work out some 
larger deal. That to me is the quickest, cleanest way to help 
everyone involved, especially our veterans. And I think that is 
why presidents and leaders of national veteran service 
organizations have come out against a piecemeal approach. They 
want to see us tackle this comprehensively. I know that is what 
you are trying to do, and I think that is what ultimately all 
of us want to do.
    To add to those national VSOs, we reached out yesterday to 
our local VSOs, said I am going to have a chance to ask 
questions of the Secretary, would like to know what you want me 
to ask. And much of it you have already addressed.
    Timothy Blodgett of the DAV, Post 165, says, ``The VBA 
budget is just as important as the VHA budget,'' and I think we 
all agree with that and we want to see that that moves forward.
    David Nevarez of the American GI Forum is concerned about 
an issue that you brought up: What happens if the shutdown 
persists and we have veterans who are now in homes who are 
homeless? Will you have the resources to take care of them?
    Richard Britton, a vice commander of the American Legion 
talks about shutdown exacerbating problems that veterans 
already have.
    David Garcia, commander of the DAV, Post 187, talks about 
veterans who are recipients of VA and Social Security benefits 
having a really hard time after November 1st.
    And then Kay Davis, president of Veterans of Foreign Wars, 
actually came up with a solution. Her solution was term limits 
for Members of Congress if we are unable to figure this problem 
out.
    But the frustration and the questions really are not with 
you. They are with us. And with the need to respond to this in 
a way that will get the government up and running, functioning 
again for all departments because veterans work in all of them, 
for all veteran services, because veterans are impacted by all 
of them, and again, from my perspective, the quickest, cleanest 
way to do this, and we could have the government up and running 
tonight, is to vote for a clean funding bill.
    So, Mr. Secretary, again, thank you for your presence 
today, for answering our questions, and commenting on our 
statements. My time is up, so I will yield back to the 
Chairman, but thank you.
    The Chairman. Thank you very much.
    Mr. Coffman, you are recognized.
    Mr. Coffman. Thank you, Mr. Secretary, and also thank the 
men and women that work--I like to thank the men and women that 
work for your department to take care of those who have made so 
many sacrifices in defense of our freedom.
    My question goes to the four hospitals that are under 
construction by the VA. And VA contingency plan states that 
certain, quote, ``major construction and facilities management 
support functions will be suspended,'' unquote during the 
shutdown. What has been the status of the four ongoing major 
projects in Aurora, Las Vegas, Orlando, and New Orleans during 
the shutdown?
    Secretary Shinseki. Congressman, I indicated that where we 
have work underway on site, that work will continue. Our 
administrative oversight responsibilities will be diminished, 
but we will exercise those responsibilities. Payments to 
contractors and therefore payments to the subs, an 
administrative process that will be slowed. But, in time, 
payment will be made. We just don't have the folks to do that 
as robustly as we would like. But in terms of site work with 
supervision, that will continue in those locations you 
described.
    Mr. Coffman. Mr. Secretary, as you know, the payment has 
already been--the process has already been very slow according 
to a GAO report that came out in April.
    Secretary Shinseki. Yes.
    Mr. Coffman. In terms of these setbacks that you talk 
about, will they affect, in your view, the completion date and 
the budget totals for each project for these four major 
hospitals?
    Secretary Shinseki. Our work is slowed. The longer this 
goes, --I would be concerned that we begin to affect the end of 
the project, that we continue to slide project execution to the 
right.
    Mr. Coffman. Thank you, Mr. Chairman.
    I yield back.
    The Chairman. Thank you very much.
    Mr. Takano, you are recognized for 5 minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    I wish to associate myself with the remarks with the 
gentleman from Texas, Mr. O'Rourke. I think he stated very 
clearly my sentiments about what needs to be done, a clean CR. 
I also want to thank the Chairman for the tone he set for this 
Committee, very bipartisan sentiments. I think you, Mr. 
Chairman, understand that each of us on this Committee, 
regardless of party, have a deep and sincere commitment to our 
Nation's veterans.
    So I thank you for that, Mr. Chairman.
    Let me also state that, you know, beyond the bipartisan 
bill that we passed on MilCon veterans, even the Budget Control 
Act of 2011 reflects that bipartisan spirit and the fact that 
it exempted the Veterans Administration from sequestration 
cuts. And it is my belief that--it is my conjecture that what 
is happening in the Senate and the holdup with consideration of 
this bill has to do with the complexities of sequestration and 
the divisions that are occurring between our two sides. I mean, 
there is a reluctance to pass all of the appropriations bills 
until we see in toto what we are dealing with in terms of 
whether we are going to--how we are going to have to deal with 
that limit, whether we are going to lift it or some negotiation 
is going to happen over that.
    We need to get to negotiations on the bigger picture. I 
cherish this Committee. I cherish being on it because it is one 
of--one corner of the Congress that is still functional. And I 
want to fight fiercely to keep that spirit, and I thank the 
Chairman for the small ways in this Committee that he has tried 
to keep that alive.
    And I have to--I yield back the balance of my time. I have 
to go back to a meeting in my office.
    The Chairman. Thank you very much.
    Looks like Dr. Wenstrup is gone.
    Mr. Bilirakis, you are recognized.
    Mr. Bilirakis. Thank you. Thank you, Mr. Chairman.
    And thank you for your testimony, General.
    General, let's summarize again, I walked in just a little 
late in your statement, but which programs I understand because 
of legislation that we passed, the VA, the health care, the 
outpatient clinics, the hospitals, the CBOCs are protected, is 
that correct? They will not be impacted.
    But tell me which programs will be impacted because of--due 
to the shutdown. I think our constituents have a right to know, 
and if you could briefly summarize, I would appreciate it very 
much.
    Secretary Shinseki. Congressman, the Veterans Health 
Administration, because of its special opportunity to have 
advance appropriations, courtesy of the Congress, is funded. 
And so that is hospitals, medical centers, hospitals, vet 
centers, community-based output clinics, and every version of 
health care center in-between.
    Mr. Bilirakis. No exception, correct?
    Secretary Shinseki. No.
    Mr. Bilirakis. No exception. They will be funded.
    Secretary Shinseki. The only exception where there is 
impact is North Chicago, where I say it is operating, but it is 
in an excepted category. Everyone else in the VA system is 
fully funded.
    Mr. Bilirakis. Okay, thank you very much.
    Which programs will be impacted in your opinion and if you 
can give me some deadlines. I know we went through a lot of 
this, but I would like for you to summarize.
    Secretary Shinseki. All of the other programs that are not 
advanced funded are impacted and being impacted. And some of 
this is the degree to which, and when they are going to be 
impacted is a function of how much 2013 residual carryover 
funds we have available, a device that the Congress authorizes, 
certain percentages that we are allowed to use as carryover to 
transition between budget years. But if this continues, every 
one of our departments will be impacted. We have a requirement 
in the Benefits Administration, even if we have expended the 
mandatory account and therefore have no necessary implication, 
this is one of the clauses for exception, to keep people 
working, at that point, there will be a significant requirement 
to furlough our workforce, who will be working until the end of 
this month, toward the end of this month. Thereafter, we will 
have roughly 1,000 folks operating in the 56 regional offices 
to ensure that we can receive, account, date stamp and control 
claims that are--will continue to be submitted, both through 
the normal process, and through the call centers. So there are 
people working in the call center as well.
    Mr. Bilirakis. Okay, thank you very much, Mr. Chairman.
    I yield back. Thank you, General.
    The Chairman. Mrs. Negrete McLeod.
    Mrs. Negrete McLeod. Thank you, Mr. Chairman.
    Mr. Secretary, I know that you said that the VA not only 
deals with the VA, but other departments also, and so those 
veterans receiving educational benefits and stipends under the 
GI bill and that are attending school now because school has 
already started at various institutions, what will happen after 
November the 1st, you know, if they won't get their money? Have 
you talked to the colleges, the institutions, the universities?
    Secretary Shinseki. Congresswoman, we are doing everything 
we can while we have mandatory funds available, at least two 
accounts, two categories that we will expend money to cover 
immediately. One is the retroactive aspects of a claim. So 
someone who is due money for previous authorization up until 
this point, to the best of our ability, we pay those, and for 
students currently in school, we pay those as well.
    But that draws down this mandatory account I am speaking 
about. So, on 1 November, before the end of this month, it will 
be in a situation where I can no longer pay. And the 1 November 
payments that should be going out will not be able to do that 
unless more mandatory funding is provided.
    So it is, if there is funding in the mandatory account, 
which has got to come through appropriation, then I can accept 
people to continue to work to draw that down. Without that, by 
law, I have to furlough these folks.
    Mrs. Negrete McLeod. So what happens to students that are 
already in classes that have already started the semester or 
the quarter, whichever they are on?
    Secretary Shinseki. Well, at this point, this is a crucial 
question because for students who have already registered and 
had their tuition and fees paid up front, I think they are 
going to be okay. Where--and if they have drawn their book 
stipend, then I think they are probably covered. Every 
situation is different. But I will not be able to pay the 
monthly housing stipend, and that would be an issue.
    Mrs. Negrete McLeod. Have the schools, or the universities 
or the colleges made any kind of--I am sure they are aware of 
our shenanigans here.
    Secretary Shinseki. I can assure you we have reached out to 
schools, and are doing the best we can to get their support and 
cooperation, to be able to carry this for payment.
    But the schools are not involved in the housing stipend. 
That is directly from VA to the students. So that is an issue. 
And I would tell you that in my past experience, the schools 
have been quite cooperative. There are 6,000 of them, and so we 
want to be sure that we have contacted all of them.
    Mrs. Negrete McLeod. Thank you so much for your testimony 
today.
    Thank you, Mr. Chair.
    The Chairman. Thank you very much. Ms. Walorski, you are 
recognized for 5 minutes.
    Mrs. Walorski. Thank you, Mr. Chairman.
    Good to see you again, Mr. Secretary.
    You had mentioned earlier the South Bend CBOC would be 
delayed. We were notified more than 4 weeks ago there was 
already a delay in the South Bend CBOC. So my question is, it 
obviously has nothing to do with this government shutdown. So 
would your plan then be to expedite that CBOC, once the 
furloughed workers are back and if something was delayed prior 
to a shutdown, that it would be expedited after a shutdown?
    Secretary Shinseki. Yes, we will do our best to get back on 
schedule. It was going slower than we would like, but this has 
just exacerbated the situation. But our effort will be to get 
all of these projects back online as soon as we can.
    Mrs. Walorski. And then my second question: I appreciate 
that. My second question is, according to the most recent 
Monday morning report, the Indianapolis regional office has 
11,460 claims pending, has nothing to do with the government 
shutdown. This is prior to the shutdown. And these claims are 
taking an average of 402 days to complete, over a year, still, 
in the State of Indiana to process these claims. So my first 
question is, is there an urgent plan when these furloughed 
workers come back to deal with these hot spots in the country? 
And number two, if this Furlough Plan Retroactive Fairness Act 
is signed by the President, are your employees coming back to 
work the next morning?
    Secretary Shinseki. I don't know about the next morning, 
but as soon as they are notified, we expect that they will be 
in promptly.
    Mrs. Walorski. And then what would be the plan be for high-
impact areas like Indiana with 11,000 veterans by no fault of 
their own, no fault of a government shutdown, sitting for over 
a year still waiting for claims to be mitigated on their 
behalf?
    Secretary Shinseki. Well, Congresswoman, again, I think you 
recall, we have made decisions that created an increase in the 
inventory and increase in the backlog, and we predicted 3 years 
ago that that backlog would sort of hit the high point this 
year, and it did on 25 March.
    Since that time, we prioritized claims that are older than 
2 years, that essentially 99 percent of those are done. Claims 
that are 1 year of age or older, we are well into the 80 
percent of taking that down from like 300,000, down into the 
double digits here.
    I will have to look at Indianapolis and see what the issues 
are, but they would be in this prioritization that we have been 
in. Anything older than 1 year, we intended to have done here 
before the end of this year. And we are on a track to do that 
and would like to get back on it.
    Mrs. Walorski. I appreciate that.
    Thank you, Mr. Chairman, I yield back my time.
    The Chairman. Ms. Titus, you are recognized for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman.
    And thank you Mr. Secretary for being here.
    I will apologize, if some won't, for the inappropriate 
attempt by people to drag you into the politics of this 
unfortunate situation.
    I am the Ranking Member of the Disability Assistance 
Subcommittee, and I carefully monitor those Monday morning 
reports. I guess we won't be able to get those now because of 
this unnecessary shutdown. And I am optimistic about the 
strategy we have made. We have heard in that Committee about 
the 80 percent of the 1-year backlog; the 99 percent of the 2-
year backlogs. I think it is remarkable progress, and it is 
just a crying shame that some of that is going to now be pushed 
back because of this shutdown.
    We have spoken a number of times about what is happening in 
the Reno office, which serves Las Vegas. It also has very long 
waiting periods, but we have addressed some of that. General 
Hickey has been out to visit. That is kind of in process and 
making some progress. There is still a long way to go.
    But I have been hearing some conflicting reports about the 
closing of the regional offices. Some closed, some not. Could 
you kind of go into some detail about how that choice is being 
made, or what is happening in those regional offices during 
this shutdown?
    Secretary Shinseki. Congresswoman, I sort of laid out a 
timeline here, that I have roughly the Benefits Administration 
just round figures about 20,000 people. Nearly 8,000 of them 
have been furloughed 2 days ago. The remaining 12,000, 13,000 
continue to work because there are mandatory funds available in 
the account, and I continue to draw down on that.
    At the point that mandatory account is depleted before the 
end of this month, that will happen. At that point, I have no 
necessary implication to continue to have this workforce 
present. And at that point, I will--we will be forced to 
furlough these individuals. The law requires it. Beyond that, 
we will keep a small workforce present. My understanding is all 
of the regional offices and the national call center will have 
presence in order to receive claims, date stamp claims, and 
control that property for the veterans who have made the effort 
to submit them. But it will be a much reduced operation, 
receipt only, and no processing.
    Ms. Titus. But you won't be making choices, say, between 
the Waco office, and the Reno office, or the Indianapolis 
office? It is going to be across the board?
    Secretary Shinseki. That is correct.
    Ms. Titus. And if somebody walks in will there be somebody 
there to receive a claim? They just won't be able to get 
information about the progress of their claim? Is that 
basically how it will work?
    Secretary Shinseki. I will say, yes, the claims can be 
submitted. I will have--by location, we are in facilities that 
are run by the General Services Administration, and merely 
walking in, I will have to find out exactly how that goes. But 
we are not sole occupants of many of the regional offices, many 
of the buildings in which our regional offices are located. But 
that is a good point. I mean, that is something I will go check 
on.
    Ms. Titus. And if they called, or if they call and they 
can't get you, they are going to call our office to find out, 
so if they call your office to get an update about claims, what 
will they--what will happen?
    Secretary Shinseki. Our national call center will be taking 
calls, and they are going to be up and running for just that 
reason.
    Ms. Titus. But not the regional offices?
    Secretary Shinseki. The regional offices will be much 
reduced, and my sense is they will be fully engaged in 
receiving and date stamping claims, and they won't be running a 
call center out of the regional offices.
    Ms. Titus. Well, thank you very much, and thank you for 
what you are trying to do to make the most of a bad situation. 
I can only imagine that the challenges you are facing are much 
greater than those that you have even outlined for us here 
today because of this unnecessary shutdown. Thank you.
    I yield back.
    The Chairman. Mr. Flores.
    Mr. Flores. Thank you, Mr. Chairman.
    Thank you, Mr. Shinseki, for being here today. Thank you 
for your service to our country, and to our Nation's veterans.
    I want to start by giving a shout out to the Waco Regional 
Office. I visited with them several times over the last 2 
years, and they were making remarkable progress on taking care 
of their disability backlog, and Director Limpose and the team 
there have done an outstanding job. I, just like you, are very 
concerned about the impact that this shutdown could have on 
their operations, and what could potentially happen to our 
veterans.
    So I have a couple of questions in that regard. The first 
one is: Why is the GI bill hotline closed when other VBA 
hotlines remain open?
    Secretary Shinseki. Say that again. Why is the--
    Mr. Flores. Why is the GI bill hotline closed when other 
VBA hotlines remain open?
    Secretary Shinseki. The one hotline I know will remain open 
is our crisis, veterans' crisis hotline. That is funded by the 
Health Administration.
    Mr. Flores. I am talking about the call center in Muskogee 
is apparently closed.
    Secretary Shinseki. I will go and--if you permit, try to 
provide you a better answer on exactly which ones are open.
    Mr. Flores. Okay, that will be fine, you can follow up. The 
next question is fairly simple, but it is going to take a 
little bit of time to give you the background so we can build 
up to it. And it is--it goes back a few months, starting with 
the newer information that says that the White House had some 
involvement in the IRS targeting of certain groups. And then it 
builds from there by saying that the Park Service has said that 
they have been told to make it as tough on Americans as 
possible during this shutdown period.
    So again, that doesn't have anything to do with you or me 
right now. But back on September the 19th, this Committee held 
a hearing, and it had Assistant Secretary Joan Mooney. And I 
asked her a question about whether or not the Office of 
Congressional Legislative Affairs had ever been influenced by 
the White House in terms of its responses to Congress. She 
replied at that time that they had not. But then she sent me a 
follow-up letter a few days later, and she said that sometimes 
that the White House does intervene on correspondence between 
the VA and Congress.
    So, again, this is still setting up the background for this 
information. And then if you go through the timeline of 
activities that we have seen recently: There was a field guide 
that was issued on Friday, September the 27th, the VA stated 
that disability claims processing would not be affected. Then, 
on September the 28th, the VA notified the House Veterans 
Affairs' Committee that they would not be able to send the 
November benefit checks because funding would run out in late 
October. You have confirmed today so there is nothing new 
there.
    But then, on September the 30th, President Obama had an 
interview and he stated that veterans, and I quote, ``Veterans 
will find their support centers unstaffed,'' which was a direct 
contradiction of the field guide that said that the vet centers 
would not be affected from a couple of days earlier. And then, 
in that same interview, the President also intimated that the 
shutdown would affect somebody in the VA office who is 
counseling one of her vets who has got PTSD.
    On October the 1st, the VA updated the field guide, or it 
was amended to add that the end-of-month caveat to benefits 
payments bullet in the original field guide.
    Then yesterday, I get the news that the Waco Regional 
Office has had to lay off a third--or furlough a third of its 
staff.
    So, again, this goes back to my question, which is fairly 
simple, and that is, did someone at the White House, or the 
Office of Management and Budget, or the Treasury, or any other 
Federal agency, or any other Federal employee ask you or anyone 
else in the Veterans Administration to modify the timetable 
under which the VA was going to begin its operational wind 
down, if you will, to deal with the lapse in appropriations?
    Secretary Shinseki. Fair enough. I think if your 
perspective is that there is the ability to reach in and 
understand and influence how we operate, I would say it is just 
the opposite. Now, look, we are faced with an unusual event. A 
shutdown of government doesn't occur frequently, and we have no 
good plans in place. We had to go back and look at what 
happened in 1996 to have some idea what the requirements were 
going to be.
    At the same time, we have a 13 close up, and you know, if 
on the 5th of September, whenever Ms. Mooney testified, if 
someone had said we are going to shut the government down, I 
will guarantee you, between the 5th of September and 30th of 
September, there would have been actions that I would have 
perhaps taken differently. That didn't become obvious to us 
until the last week, maybe Wednesday of the last week of 
September. And then we had to do these assessments. And if your 
complaint is that we changed--
    Mr. Flores. Let me reclaim my time for just a minute.
    I am not complaining. I was asking you a simple question on 
whether or not the White House had any influence over the 
timetable for the VA shutdown process. I think you have 
answered it no. And I just wanted to say--
    Secretary Shinseki. No, the answer is no.
    Mr. Flores. I am glad to hear that answer. You and I both 
agree that, I think that--well, let me rephrase that. I think 
most of us in here agree that the House has done its work by 
passing two appropriations bills that would deal with this 
issue. One is the MilCon VA bill, which would fully fund VA. We 
wouldn't be sitting here having this discussion today. Also, we 
passed H.J. Res. 72 last week, which would fund the VA so that 
we wouldn't have this conversation. Both of those bills passed 
on a bipartisan basis. So I would urge those folks that are 
listening to this hearing to be sure to influence the Senate to 
take up on those two bills.
    Thank you, Mr. Chairman, I yield back.
    The Chairman. Thank you very much.
    Ms. Brown, you are recognized for 5 minutes.
    Ms. Brown. Thank you.
    Thank you, Mr. Secretary, for being here.
    Let me be clear, I keep hearing ``the Senate, the Senate.'' 
I put the responsibility straight here with the House.
    We could pass a clean CR, and you would not be sitting 
there. I have done, my entire career, all I could do that 
veterans would not be caught up with the House and the Senate 
politics.
    I don't blame the Senate. I thank God for the Senate.
    The bad politics of this House, and at some point, you 
know, let's don't confuse nobody with the facts.
    Now, we have been talking about November 1. I want to talk 
about October the 17th. If we do not pass the full faith and 
credit, if we default, what will happen to all of the mothers 
and the spouses in the TRICARE and the checks that go out for 
the VA, period? Tell us what is going to happen when these 
people in the House let us default on our credit? What happens 
to the VA, and the people that have been talking to me aren't 
Federal employees. They are contractors. And the contractors 
are not going to get any back pay. They are being laid off in 
droves because the Government is not effective and the House is 
responsible.
    This House could pass a clean CR. For the first time ever 
in the history, I voted against a VA bill because this 
piecemeal bill was $6 billion less than the full spending bill 
we passed out of here. So, now, please respond.
    Secretary Shinseki. Well, Congresswoman.
    I would just repeat what the President has pointed out. 
What he looks for the Congress to do is two things: One, 
provide a budget so we can operate as a government; and two, 
pay the bills that have already been incurred. And both of 
those issues are at play here. I am looking for a budget and so 
is the rest of the government, so we can do what we are charged 
to do. And then paying the bills is the issue, the debt 
ceiling, and that--those are authorizations that have already 
occurred.
    Ms. Brown. But what happens on the 17th if we default? What 
happens to the VA? Will--the veterans ask me--will they get 
their checks?
    Secretary Shinseki. Congresswoman, I am planning to operate 
as long as I can this month, but at a certain point here in 
days, I will begin to furlough people, and that will have to do 
with my inability to continue to operate under the carryover. 
And so whatever occurs with the discussions of debt ceiling, I 
imagine will be even worse, but beginning here, in days to 
weeks, before the end of this month, for the most part, VA will 
be reduced in operations. My office will be 90 percent shut 
down, my office.
    And the Legislative Affairs, with whom you deal frequently, 
will be down to one person; Public Affairs down to one person. 
And then for the rest of our operation other than receiving 
claims and looking after families that are expecting us to 
provide the appropriate burial services, all of that will be 
reduced.
    Ms. Brown. So I just want to be clear. I want you to know, 
this is a self-imposed disaster on the veterans and on the 
country. There is no need, as we sit here. I mean that the 
Senate and the President had agreed to the poor levels of the 
House. They have agreed to it. Clean CR, and we could move 
forward. But yet, we have people that want to blame the Senate, 
want to blame the President. At 20 minutes to 12, we want a 
conference. It was over.
    The House is inept. I have been in here for 22 years, and I 
have never seen anything like the people who serve in this 
House that act like they care about the veterans. They talk the 
talk, but they don't walk the walk. They are out at the 
cemeteries or out at the memorial saying, Oh, we don't know why 
it is shut down. Well, you voted to shut it down a few hours 
earlier. This is a sad state of affairs.
    This Committee used to be bipartisan. And now you got a few 
Members that are dragging the House of Representatives down, 
the People's House.
    I yield back the balance of my time.
    The Chairman. Thank you. The gentlelady's time has 
completely expired.
    And for the Members of this Committee and those that may be 
listening today, the VA Continuing Resolution that the House 
actually put on the floor that has been berated by a couple of 
Members, saying that it was less than folks wanted by $6 
billion, was exactly the same piece of legislation that Senator 
Sanders filed Monday night. And so folks that are out there 
saying we shouldn't do this by piecemeal, Senator Sanders, 
along with Ms. Hirono, Mr. Begich, Mr. Tester, and Mr. 
Blumenthal, which coincidentally held a news conference at the 
very same time we have been having this hearing with the 
Secretary, to say that we should not be using him as a punching 
bag.
    Mr. Secretary, I trust that we have not used you as a 
punching bag today. We are trying to get the information out to 
the veterans, and again, you have talked in depth about those 
things that we will not be able to do. But my question, how 
many employees within VA will still be on the job after 
November 1st if this shutdown continues?
    Secretary Shinseki. Again, Mr. Chairman, I--let me take 
that one for the record to give you the specificity that you 
are looking for. As I say, there are still factors coming 
together to tell me how long I operate. I have told you that 
the mandatory funds are expected to be depleted before the end 
of this month, affecting both the 1 November checks and 
affecting the VBA in large measure. Their present workforce of 
about 13,000 people will be severely reduced, will be down to 
about 1,100, and roughly 1,000 people in VBA. So we will have 
people functioning in VBA.
    NCA will likewise have to furlough a significant portion of 
their workforce and will go to modified operations. VHA is 
fully funded, and so when you look at the account, it will look 
very large, but that is because VHA is about 80 percent of our 
workforce and our budget.
    Ms. Brown. Mr. Chairman.
    The Chairman. But I do think it is important to remember 
that, you know, that your total employees are about 335,000. 
And so when we talk about numbers of 10,000, 4,000, those are 
big numbers, but as it relates to the overall number of 
335,000, I would appreciate, and you have already said that you 
would take it for the record. I would appreciate you getting 
that information to us.
    Ms. Brown. Mr. Chairman, I have just a quick question.
    The Chairman. The chair does not recognize the gentlelady 
from Florida. Her time has expired.
    Mr. Secretary--
    Ms. Brown. I have a question, Mr. Chairman, on the question 
that you were asking the Secretary.
    The Chairman. Madam--
    Ms. Brown. You are asking about the number of employees. My 
question is, how many people that receive checks will not be 
getting those checks? I think that is a bigger question.
    The Chairman. Again, the gentlelady is not recognized for 
her question. And I appreciate what she is asking.
    But, you know, I would--we knew the possibility of this 
some time ago. I don't believe anybody in this room wanted to 
be where we are today. Do you believe the same thing, Mr. 
Secretary?
    Secretary Shinseki. From my background, I would say you 
look at all the options. This is not one I believed would 
happen. I just didn't think the august Members of this 
Committee or the Congress would allow this to happen.
    So I had plans, and we have quickly dusted them off, and 
within 72 hours gone into emergency procedures to continue to 
take care of veterans as long as we could, and then ensure the 
orderly shutdown of our activities. So we are taking care of 
our people as well.
    So, Mr. Chairman, if you knew a shutdown was going to 
happen, it wasn't shared with me. Yes, you always look at the 
possibilities. I didn't think, I just didn't think you would 
allow this to happen.
    The Chairman. And I think most Members of this Committee 
would say that we do not want to be here. This was not an 
intended consequence. But we are here. And we have asked you to 
come in and talk to us. And my question, I guess, is at what 
point did you start doing extraordinary measures to prepare for 
this and begin to scale back some expenditures so that you 
would not be perceived as making foolish expenditures of funds 
that may be necessary? You probably can gather where I am going 
with this question.
    Secretary Shinseki. I don't gather where you are going.
    The Chairman. How did we end up with the $500,000 worth of 
art in Kansas?
    Secretary Shinseki. Sure, I would be happy to answer that.
    The Chairman. Why have we been spending over a million 
dollars in the Washington, D.C., area on PR ads?
    Again, I think those that are being furloughed want these 
questions asked. It is not a political question. It is a 
question as to prioritization, because we are talking about the 
people not getting the benefits that they have earned, not 
being able to be buried in a timely fashion, yet we can spend 
hundreds of thousands of dollars on things that probably the 
general public would think were inconsequential to taking care 
of our veterans.
    Secretary Shinseki. You raised artwork. And I think the 
suggestion that this was year-end spending, that is not the 
case. There were three facilities that have been in the process 
of being constructed and/or major refurbishment. In the case of 
the Miami facility, it is an 843,000-square-foot facility, 11 
floors. Major renovations in this facility hadn't been done 
since 1980s. And that project is completed. And part of the 
project was to replace wall hangings, photographs, prints that 
add to that environment that says it is a healing environment 
and welcoming to veterans.
    West Los Angeles, a 16,000-square-foot facility in which 
homeless and mental health clinics have been provided. And then 
the Jacksonville Community Based Outpatient Clinic, a new 
construction project, 102,000 square feet needed to be 
outfitted. All total, about 1,400, a little over 1,400 wall 
hangings, photographs, prints, pictures of veterans, pictures 
of local scenery that veterans in that area would recognize. I 
think artwork is probably an inappropriate description here. I 
think the average cost is under $400, all expenses included.
    Those were part of the project. They were funded and part 
of the execution. If there was a way to have anticipated the 
shutdown and redirected some of those moneys, I probably would 
have done it. But again, I say that it is not until the last 
week in September that it was clear that what was going to 
happen would happen. And we went into emergency procedures.
    The Chairman. And I apologize for not recognizing Mr. 
McNerney for your question. Thank you for your indulgence. And 
you are recognized.
    Mr. McNerney. Thank you. I want to thank you, Mr. Chairman 
Miller, and also Ranking Member Michaud, for inviting me to the 
Committee hearing, and the other Members of the Committee for 
not objecting. It is good to be back here. It is a great 
Committee. This is a terrible hearing, though, to make that 
happen.
    So I do want to say the situation is dire. On November 1st, 
we are going to cut off hundreds of thousands of disability 
recipients, of students that are depending on the GI Bill, 
families whose veterans or active servicemembers who have died. 
I think the American public needs to know the dire situation. 
We are going to be sending hundreds of thousands of people into 
dire straits, maybe making them homeless. And there is no 
excuse. We need to solve this problem. We need to solve it in 
the next week.
    So I do have some specific questions. Mr. Secretary, in 
addition to Mr. Denham, my colleague and neighbor, I would like 
to know from you about the impact of the shutdown on the French 
Camp project. I would like to know specifically its priority. 
And I will take that offline.
    Now, as you know, the veterans service organizations staff 
members, the VSO staff members, use the VA regional offices to 
help counsel veterans. But the VSO staff members are not 
members, are not employees of the VA. Could the VA allow them 
to continue to use the facilities? I understand a lot of them 
are shut out from the facilities. Can they continue to use 
those facilities to help counsel our veterans?
    Secretary Shinseki. I am told that we are not allowed to do 
that. But again, this is a day-to-day assessment. We go back 
and check to make sure that the interpretation of the law is 
clear. But these are some pretty well-defined rules that we 
operate under. The Anti-Deficiency Act has provisions for two 
categories. One is protection of life and property and the 
other one is necessary implication.
    Mr. McNerney. Well, are there any other functions that the 
VSOs normally perform that they are not able to perform now?
    Secretary Shinseki. We will look for every opportunity to 
help them be successful in their mission. It is part of our 
mission as well. But, frankly, we are trying to process as many 
claims as we can before the mandatory account is depleted. And 
then thereafter we are into receiving and date stamping claims.
    Mr. McNerney. Well, you said, I believe, that the VA 
processing claims are continuing. Are there decisions being 
made about these claims? And if so, are the veterans being 
notified about those decisions? Or is that on hold?
    Secretary Shinseki. In those circumstances where we are 
able to pay, and I described the retroactive aspects of this, 
we won't be able to pay continuing monthly benefits. But for 
those veterans who have a date stamp that goes back some time, 
when that is awarded, we try to pay the retroactive portion of 
that. The monthly cycle picks up in November.
    Mr. McNerney. So they will be notified if a decision is 
made even if they are not able to get their check.
    Secretary Shinseki. Well, they will be notified if we are 
able to pay the retroactive aspect of that. And then we will 
process the remainder of the claim and put that in the line.
    For students who are currently in school, I think I 
answered a question earlier that says that, as long as we have 
mandatory funds remaining, we will honor as many of those 
requests as we can. But those all draw the mandatory account 
down. And before the end of the month, it will be depleted. And 
then we will look to furlough the workforce that has been doing 
that.
    Mr. McNerney. Are the prescription drug benefits being 
impacted, veterans' prescription drug benefits?
    Secretary Shinseki. Say that again. I am sorry.
    Mr. McNerney. Are the veterans' prescription drug benefits 
being impacted by the shutdown?
    Secretary Shinseki. Prescriptions, Veterans Health 
Administration is fully funded, and so medications are 
available and will be filled.
    Mr. McNerney. All right. Thank you, Mr. Chairman, for 
allowing me to participate today.
    The Chairman. Thank you very much.
    Mr. Bilirakis, you have any other questions?
    Mr. Coffman?
    Mr. Coffman. Thank you, Mr. Chairman. Just one more 
question.
    Mr. Secretary, my Oversight and Investigations Subcommittee 
uncovered that the VA's cybersecurity protection measures were 
inadequate, even when the VA has been fully funded before the 
shutdown. In fact, the investigation discovered numerous 
occurrences when foreign state-sponsored hackers infiltrated 
the VA network. How has the shutdown affected the private 
information of veterans and their families? Are these 20 
million individuals in the VA system now at even greater risk?
    Secretary Shinseki. Congressman, I will tell you of what we 
know. We will have the ability to respond to what we know. But 
there is, as you would expect, more to this than sometimes even 
we are able to know. So we do take steps to assure the security 
of our system. Every event better prepares us for the next. And 
we are active here.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Michaud, you are recognized.
    Mr. Michaud. Thank you, Mr. Chairman.
    Just a quick follow-up question, Mr. Secretary. You 
mentioned about the delays and the overtime you already had in 
your original budget you presented to Congress, as well as 
anticipating, I think it was $40 million to carry over for next 
year's budget. Since you have utilized that $40 million, you 
can't carry it over, and since the delays have caused the 
backlog to creep back up again, will you be requesting an 
additional supplemental to deal with replacing that $40 
million, as well as more overtime money to get you back where 
you have to be as far as the backlog?
    Secretary Shinseki. I think the basic question is, am I 
going to try to reconstitute that $40 million? I will find 
every way I can internal my accounts. And if I am not able do 
that and I need to look for support here to get that funding in 
place to be able to get veterans the care they need, I will 
seek it.
    Mr. Michaud. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Huelskamp?
    Mr. Huelskamp. Thank you, Mr. Chairman. I did want to take 
a note, a little bit of time, I would like to apologize to 
anybody on this Committee that might have been offended by my 
trying to find out exactly why the U.S. Senate has not voted on 
these appropriations. I do appreciate the bipartisan nature of 
this Committee. But I think we all agree here that our veterans 
should not be used as pawns in this particular debate. And I 
appreciate the work in terms of the Secretary.
    But the language that I have seen, in particular reference 
to the individual in the Senate that I asked a question about, 
has used some language that I don't think anybody in this 
Committee has used, has not called anybody an anarchist or a 
fanatic or insane. That is the language we hear coming out of 
here, and it does no service to our veterans. So I apologize if 
anybody took offense at trying to figure out why we have not 
seen a vote in that.
    I appreciate the Secretary continuing to try to work with 
the Senate, encourage them to bring that to a vote. I am pretty 
confident, based on what we hear here, that that can go right 
to the President and keep those doors open.
    I yield back, Mr. Chairman.
    The Chairman. Thank you very much, Mr. Huelskamp. We have 
asked the other Members if they have any--Mr. Ruiz, do you have 
a question?
    Mr. Ruiz. Yes, sir.
    The Chairman. Sorry, Mr. Secretary.
    Mr. Ruiz, you are recognized.
    Mr. Ruiz. Thank you very much, Mr. Chairman.
    Secretary Shinseki, thank you for your service to our 
country.
    The government shutdown has caused a crisis that could have 
been avoided had Congress simply worked together to put people 
ahead of politics and solutions above ideology. It is 
unconscionable that Congress continues to put political 
gamesmanship above the needs of our veterans.
    The best way to help veterans in my district and across the 
country is to end this reckless shutdown. Now that the VA is 
required to furlough thousands of employees, how will that 
affect the veterans claims backlog and constituents, 
specifically in my district? Meaning, how will furloughs impact 
the LA regional office and the San Diego regional office which 
review claims for veterans in my district?
    Secretary Shinseki. Congressman, as I indicated earlier, 
our availability of carryover funding for 2013, roughly $40 
million, we exhausted that on 7 October, and then had to 
furlough about 7,800 people. We have about 13,000 benefits 
employees who are doing what they always do, and that is, you 
know, process claims as quickly and as accurately as they can. 
With the end of mandatory overtime, we are doing that at 1,400 
claims each day less than we were doing, you know, before 30 
September. So there is a cumulative effect here.
    These employees will continue to work until such time as 
something we call the mandatory account, that currently has 
some residual funds, they will continue to process claims until 
that point. And where we can pay for a retroactive claim or for 
a student claim, we will continue to do that. But as we do 
that, we draw down the mandatory account. When the mandatory 
account is exhausted before the end of this month, then the 
vast majority of these people will also be furloughed, and that 
will begin to have a great impact on the backlog. Today, the 
backlog is already 2,000 higher than it was on 30 September. So 
it is already beginning to have an effect.
    Mr. Ruiz. Well, I want you to know that we will continue, I 
will continue to advocate for pragmatic solutions so that we 
can open our doors, specifically for our veterans. My office in 
the district has not shut down. We have extended hours, and we 
are even working weekends, if a veteran needs it, to come and 
pick up that mantle, because the mantle that has been dropped 
by this ridiculous shutdown. And we will be there for our 
veterans. And I look forward to collaborating with you so that 
once we open our doors, those veterans that have been ill-
affected by this will have expedited, prioritized treatment so 
that we can continue to serve the veterans to the best of our 
abilities.
    So I appreciate your service to our country, and thank you 
very much.
    Secretary Shinseki. Thank you. That is my intent as well, 
Congressman.
    Mr. Ruiz. Thank you. I yield back my time.
    The Chairman. Thank you, Mr. Ruiz.
    I would like to recognize for a final question Ms. Brown.
    Ms. Brown. Thank you, Mr. Chairman. And Mr. Chairman, I 
would like, before I ask my question, the four service 
organizations sent a letter to Congress not supporting the 
piecemeal VA bill on the floor. So is it possible that I could 
submit that to the record?
    The Chairman. Without objection.
    Ms. Brown. Thank you.
    Now, because, you know, to talk about what a Senator 
introduced, I don't want to talk about the Senate, I want to 
talk about the House, the House of Representatives, where I 
serve. And, Mr. Secretary, my question to you is, come 
November, or the third week in October, will 3.8 million 
veterans not get their checks in the mail? Benefits, that is a 
nice thing, but checks is what they live on. Most veterans that 
get those checks are on fixed income. Explain to me how they 
are supposed to make it.
    Secretary Shinseki. Congresswoman, effective 1 November, if 
we don't resolve this, those veterans will not receive pension 
compensation. For veterans who are in school, their education 
checks, vocational rehab. And those beneficiaries are not just 
veterans, that is 3 million veterans, but when you add 
surviving spouses and children, it is over 5 million 
individuals who will be involved. I mean this is serious, and I 
am hoping that the leadership of this Committee will help us 
resolve it.
    Ms. Brown. Thank you, Mr. Secretary.
    You know, I was told that the House, somebody fed them some 
snake oil. So I went home and tried to find snake oil. I think 
it is just in Texas. So I did look for some holy oil, and I did 
bring some back.
    But this is not a joke. This is very serious. Veterans have 
come up to me in church Sunday, because that is the only place 
I went Sunday, two services, and I needed more, and they wanted 
to know about their benefits. And I told them, as of October 
the 17th, if we default, they will not get their benefits. And 
I told the Social Security people the same thing. You know, is 
this true? Will they not get their benefits? Is this a game?
    Secretary Shinseki. That is not a game, Congresswoman. 
There are veterans and servicemembers, families, children 
counting on us. And they expect us to deliver. Five million of 
them will be impacted here severely.
    Ms. Brown. I hope that there is some leadership on this 
Committee that will work with the leadership in the House and 
come up with a clean continuing resolution, because the problem 
that we have is that so many of the people that has been 
furloughed, they are contract people, they will not get back 
pay. And many of them are veterans. Do you all have contracted 
employees also?
    Secretary Shinseki. We do.
    Ms. Brown. Thank you, Mr. Chairman.
    The Chairman. Thank the gentlelady.
    Thank you, Mr. Secretary, for being here, again on short 
notice, and for over 2\1/2\ hours. We appreciate you taking the 
questions. We do have other questions that we will submit to 
you for the record.
    The Chairman. And in particular, I want to ask that you 
help this Committee in furthering a bill that was passed out of 
this Committee in a 100 percent bipartisan fashion, that is 
advance funding for the remainder of VA's budget, so that we 
don't get into this type of situation any more.
    All members will have 5 legislative days with which to 
revise and extend their remarks.
    Mr. Secretary, thank you.
    This hearing is adjourned.

    [Whereupon, at 12:48 p.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

            Prepared Statement of Hon. Jeff Miller, Chairman
    Good morning. This hearing will come to order. Before we begin I'd 
like to ask Unanimous Consent for the gentleman from California, and 
former Member of this Committee, Mr. Jerry NcNerney to join us at the 
dais. Hearing no objection, so ordered.
    Mr. Secretary, welcome. I appreciate you being here on short 
notice.
    We're here today to understand how veterans are being impacted by 
the lapse in appropriation that has led to the government shutdown. 
There is plenty of blame to go around as to why we're in this position, 
but that's not why I called this hearing. Put simply, we're looking for 
the best information possible on what all of this means for veterans.
    Veterans want to know whether their disability checks and GI Bill 
benefits will be paid on November 1 and thereafter. They want to know 
if their disability claims will be decided or further delayed. Families 
want to know if their loved ones will receive a timely burial at a VA 
national cemetery. And many of VA's employees want to know whether 
they'll be serving veterans on the job, or whether they'll be 
furloughed.
    I understand that the answers to some of these questions are 
entirely dependent on how long this shutdown lasts. And although I want 
it to be over quickly, it is our responsibility to ensure that the 
public, especially veterans, understand precisely what the current 
state of play is.
    Mr. Secretary, we've had some difficulty in the last couple of 
weeks getting good information about VA's contingency plan and the 
effects a lapse in appropriation would have on veterans. For example:

    <bullet>  First, the original field guide VA put out regarding the 
shutdown's impact at first spoke of no effect on payments to veterans 
or processing of their benefits. But in a later version, VA stated that 
a prolonged shutdown would impact both, but didn't provide precise 
details as to how.
    <bullet>  Second, the Veterans Health Administration is not 
shutdown at all because it received its full year appropriation for 
2014 back in March. So, hospitals, clinics, and Vet Centers should all 
be open for business. Yet the President made a statement the day before 
the shutdown saying that veterans ``will find their support centers 
unstaffed,'' and implying that counseling services for veterans with 
PTSD would be affected.
    <bullet>  Third, this Committee has consistently been told that 
VBA's mandatory overtime effort towards the backlog would end on 
September 30. Yet days into the shutdown, we were informed that the 
shutdown prevented VA's planned continued payment of overtime.
    <bullet>  Fourth, although a shutdown should have a relatively 
uniform effect across all Regional Offices as suggested by VA's field 
guide, my staff met with several representatives from the veterans' 
organizations last week who relayed that their members are hearing 
mixed messages out of different Regional Offices.

    I want to be clear that none of this is ideal. Some degree of 
confusion is to be expected. VA employees should be worrying about VA's 
mission of service to veterans, not planning for furloughs or managing 
an agency on spare change remaining from last year.
    However, what can never be expected is anything less than the full 
truth, as best as it is known. This grave situation does not need to be 
assisted by misleading statements designed to aid a political argument 
by any party. It's my hope that we can uphold the best traditions of 
this Committee and rise above all of that today.
    Mr. Secretary, thank you for your willingness to join us in that 
effort. Since this hearing was called last Friday we've had a bit more 
clarity on some of these issues we have been asking your staff about 
for the last ten days, but I thought the public should hear that same 
information.
    One last point before I conclude. Last July we held a hearing on a 
bill the Ranking Member and I introduced that proposed to advance fund 
the entire VA discretionary budget. The Administration declined to take 
a position on the bill, saying instead it needed to conduct a review 
first. It is obvious that no review is necessary given where we are 
today. Mr. Secretary, I sincerely hope that you are making that case 
within the Administration, and I'll follow up with you on that point 
during questioning.
    I now recognize the Ranking Member for his statement.

                                 <F-dash>
             Prepared Statement of Hon. Michael H. Michaud
    Thank you, Mr. Chairman.
    Before we begin exploring how the government shutdown is affecting 
veterans and the VA, I want to acknowledge the very real consequences 
the lapse in appropriations has had on VA employees. I know that VA 
employees do not work solely for a paycheck. They work because they 
believe in helping veterans. You have done your job, now it is time for 
Congress to do its job.
    We can do this in two ways, either the Senate can take up the 
MILCONVA appropriation bill passed by the House, or the House can take 
up the clean CR bill passed by the Senate. I don't care which we choose 
as long as we get on with re-opening the government with a fully funded 
VA.
    The VA ``contingency plan'' and ``field guide'' provided us a rough 
idea of the consequences of a government shutdown. Last week, we saw 
the immediate shutdown of some VA offices, such as the Inspector 
General. Yesterday, we saw some VBA and IT accounts run dry and 
thousands of VA employees furloughed. We know that the mandatory funds 
to pay compensation and pension benefits are scheduled to run out in a 
little over two weeks.
    We also know that furloughs and suspension of programs in other 
agencies affect veterans. Of the roughly 2.1 million Federal employees, 
more than 600,000 are veterans. Many of them are already, or expect to 
be, furloughed. Also, as programs and services at other agencies are 
disrupted, it affects VA's ability to receive the necessary information 
and support to deliver veteran services.
    We know we will hear bad news today. Important VA operations have 
or will be suspended. Some veterans will not get what they are 
expecting, what they deserve, and most importantly, what they have 
earned. This may be a difficult conversation, but one we must have - 
openly, frankly and honestly.
    But, amidst the bad news there is some good news. With VA's medical 
accounts under advanced appropriations, the Veterans' Health 
Administration is largely unaffected by the lapse in fiscal year 2014 
appropriations. All medical facilities are open and operating under 
normal status. This will continue regardless of how long the current 
government shutdown lasts.
    It is clear now, in the midst of the shutdown, that getting a vote 
on H.R. 813, as amended, ``The Putting Veterans' Funding First Act,'' 
is a necessary and critical step in ensuring veterans' benefits and 
services are not put at risk when there is a lapse in appropriations. 
Mr. Chairman, I appreciate you signing a letter with me to The Speaker 
asking for H.R. 813, as amended, to be scheduled for floor action 
immediately. I encourage all members of the Committee to sign onto our 
letter and send the message that veterans should not, cannot, and will 
not be disadvantaged by party politics in the future.
    Mr. Secretary, I look forward to your testimony. With that Mr. 
Chairman, I yield back.

                                 <F-dash>
                Prepared Statement of Hon. Corrine Brown
    Thank you, Chairman Miller and Ranking Member Michaud, for calling 
this hearing today.
    Thank you, Secretary Shinseki, for briefing us today on the effect 
on Veterans by this Republican Government Shutdown.
    We are currently in Day 9 of the Republican Government Shutdown. 
There is no end in sight and now the full faith and credit of the 
United States is being put at risk regarding the debt limit needing to 
be increased.
    I want to thank the Secretary for coming here today to brief this 
Committee on how this Republican Government Shutdown will affect our 
Nations veterans.
    However, it seems as though the Republican Majority has lost the 
focus of this issue: there would be no effect on veterans, claims would 
still be filed, veterans would still be receiving the services they 
spilled their blood for if this Congress would just do its job and pass 
a clean funding bill for the Federal government.
    House Republicans continue to drag out this damaging shutdown by 
voting a cynical, piecemeal approach to funding government. This is no 
way to govern and no way to run the largest economy in the world. It's 
time for House Republicans to drop the political games and join 
Democrats to bring a vote to the floor immediately to end the shutdown 
and get our government working again for the American people.
    Even the mini-veterans appropriations bill would not have fully 
funded the VA.
    I am appalled that the House considered a bill that only partially 
funded the Department of Veterans Affairs, to take one small portion of 
the budget to help those men and women who have sacrificed so much and 
use it as a club to hammer the American people over the head while you 
argue about the Republican Government Shutdown.
    The House has not considered funding:

    <bullet>  the National Cemetery Administration
    <bullet>  the Office in charge of Construction of VA facilities
    <bullet>  Office of Inspector General
    <bullet>  Grants to state veterans homes
    <bullet>  Grants to state cemeteries

    We need to stop this charade and fund the entirety of veterans 
programs, no matter what department they are funded out of.

                                 <F-dash>
              Prepared Statement of Hon. Eric K. Shinseki
    Chairman Miller, Ranking Member Michaud, Members of the House 
Committee on Veterans' Affairs:
    The Committee invited me here today to examine the effects of the 
government lapse in appropriations on VA benefits and services provided 
to Veterans, their families, and survivors. It is important for you to 
know the following:

    <bullet>  When appropriations lapsed, we had to discontinue 
overtime, slowing our review of benefit claims. This has led to delays 
for an average of 1,400 Veterans a day. As a result, we are no longer 
making the significant gains we have made in recent months toward 
eliminating the backlog in claims.
    <bullet>  Yesterday, we exhausted carryover funds for Veterans 
Benefits Administration (VBA) employees. Therefore, consistent with our 
contingency plan, as of October 8th, VBA furloughed more than 7,800 of 
its employees, half of whom are Veterans.
    <bullet>  The Office of Information and Technology (OIT), as of 
Monday, has furloughed 2,754 of its employees, approximately 56 percent 
of whom are Veterans. While support for existing operations continues, 
all improvements to our systems have ceased. This threatens to delay 
updates to the Veterans Benefits Management System (VBMS) that allows 
us to help take down the backlog and give Veterans quick and accurate 
decisions.
    <bullet>  If the shutdown continues through late October, claims 
processing for compensation, pension, education, vocational 
rehabilitation, and employment benefits will be suspended due to lack 
of funding. Once mandatory funds are depleted at the end of this month, 
nearly 5,600 Veterans a day will not receive a decision on their 
disability claims. We have brought down the backlog by over ?30 
percent, or 190,000 claims since March. This lapse in funds will likely 
increase the backlog instead of continuing the progress.
    <bullet>  If the shutdown continues into late October, November 
compensation payments to more than 3.8 million Veterans will halt. 
These include thousands of Veterans who have the most severe 
disabilities. Payments will also stop for over 364,000 survivors and 
over 1,200 children receiving special benefits, such as children with 
Spina Bifida born to Vietnam Veterans and certain Korean War Veterans 
as well as children of women Veterans with birth defects.
    <bullet>  In addition, should the shutdown continue into late 
October, pension payments will stop for almost 315,000 Veterans and 
over 202,000 surviving spouses and dependents. As you know, these 
Veterans have very low incomes and depend heavily upon these benefits.
    <bullet>  If the shutdown continues, education benefits and living 
stipends under our ??GI Bill programs will stop for over 500,000 
Veterans and Service members.

    These are simply the facts. Mr. Chairman, this shutdown could end 
today if Congress would fully fund government operations so that VA and 
the rest of the Federal government can get back to work. There are 
those who have suggested a piecemeal approach, to pick and choose which 
parts of the government to fund. This is not the best solution for our 
Veterans or our Nation.
    Veterans depend on government services beyond just those provided 
by VA. First, there are important programs and benefits that are the 
result of partnerships between VA and other agencies. For example, the 
Department of Labor (DoL) is a close partner with VA on Veterans jobs 
programs. However, the shutdown requires the suspension of functions of 
DoL's Veterans Employment and Training Service (VETS). The work VA does 
in partnership with the Department of Housing & Urban development (HUD) 
to end Veteran homelessness has also been impacted by the lapse. 
Veteran entrepreneurs are impacted by the loss of Veteran programs at 
SBA, particularly the assistance granted through the Veterans Business 
Outreach Centers and the Small Business Development Centers. These 
organizations help Veterans start and build their small businesses, 
including helping them locate sources of capital. Veterans just leaving 
the military will not have access to programs intended to educate them 
about becoming entrepreneurs.
    Additionally, service-disabled Veteran-owned small businesses that 
are involved in status protests in any agency other than VA will not 
have their protests determined, thus holding up procurement actions at 
the issuing agency.
    Veterans, of course, are affected like other Americans by the 
government shutdown - more than 600,000 Veterans are employed by the 
Federal government, many others work for impacted Federal contractors, 
or work for other businesses that are suffering from the shutdown. 
They, like other Americans, could be impacted in other ways. For 
example, they and their families are likely feeling the effects that a 
shutdown has had on small business loans.
    Over the past week the Department of Veterans Affairs has worked to 
refine and implement closure plans, prepare for multiple contingencies, 
and communicate with our employees and stakeholders--all while 
continuing to fulfill our primary mission of serving Veterans and their 
families.
    We are working diligently to keep the delivery of services and 
benefits seamless for our Veterans to the greatest extent we can in 
light of the lapse in appropriations. In some areas, like healthcare 
delivery, there are fewer adverse effects. In others, such as reducing 
the claims backlog, we have already seen a negative impact due to the 
lapse in appropriations.
    VA's Appropriations Lapse Contingency Plan outlines the activities 
being undertaken by the Department during the government shutdown. This 
plan is designed to ensure that VA can perform an orderly suspension of 
its programs and operations during the shutdown. As the shutdown is a 
dynamic and evolving process, we continue to evaluate our contingency 
plan as time passes.
    Under applicable law, VA has a limited ability to continue 
``excepted functions'' under a lapse in appropriations to ``protect 
life and property'' or that are a ``necessary implication'' of 
functions that are funded. An example of an excepted function is the 
work performed by personnel from the Office of Information and 
Technology, who support the provision of health services at Veterans 
Health Administration (VHA) facilities. VA functions and offices not 
funded by advanced appropriations will have to operate with very few 
excepted employees, as set forth in detail in the VA shutdown planning 
materials available on our website. VA does have the flexibility to use 
a very limited amount of unexpended fiscal year 2013 funds to continue 
some offices' operations for a limited time. For some offices, such as 
OIT, VBA, and the Office of Inspector General, those limited funds have 
already been exhausted and non-excepted employees furloughed. For those 
remaining, it is a day to day determination.
    Following is a brief status update from each of our Administrations 
and major offices.
Veterans Benefit Administration (VBA)
    During the last six months, VBA had made significant progress in 
executing its Transformation Plan to improve the speed and accuracy of 
disability claims processing. Between March and September, VBA reduced 
the claims backlog from a high point of 611,000 down to 418,000 - a 
drop of approximately 31 percent. As of October 8th, claims processors 
had completed approximately 99 percent of claims over two years old, 
and nearly 81 percent of all claims pending over one year - from 
333,000 to less than 68,000 - giving Veterans who have waited the 
longest a decision on their claim. Most importantly, while increasing 
productivity, VBA also increased the quality of claims decisions. In 
June 2011, processing of disability claims was approximately 83 percent 
accurate. By August 2013, VBA's three-month average for claims accuracy 
had risen eight percentage points to approximately 91 percent. When 
measuring accuracy at the individual medical issue level - which is a 
truer measure of VA's proficiency because it captures how well 
employees rate each condition in a Veteran's claim - the rating 
accuracy is approximately 96.7 percent.
    The momentum achieved over the past six months has now stalled with 
the government shutdown. Since October 1st, claims production has 
slowed by an average of 1,400 per day, and it may slow further as 
support personnel began their furloughs on October 8th. VBA currently 
has enough unobligated FY 2013 funds available in its mandatory account 
to pay benefits and continue to process claims until about the end of 
October, assuming current year spending mirrors prior years. With no 
further appropriations, however, VBA will not be able to pay Veterans, 
their families or survivors on November 1st for all our benefit 
programs including compensation, pension, Dependence and Indemnity 
Compensation (DIC), fiduciary, education, and Vocational Rehabilitation 
and Employment. Quite simply, without the passage of appropriations 
soon, Veterans won't be paid their earned benefits on November 1st.
    On October 1st, when the lapse in appropriations began, VBA had 
roughly five days of carry over funding available in its General 
Operating Expense (discretionary) account for staff and operating 
expenses. Discretionary funding was exhausted on October 7th, requiring 
the furlough of over 7,800 VBA employees on Tuesday, October 8th, 
leaving 13,097 excepted and funded employees across all VBA programs to 
process claims and provide other benefits activities.
    The remaining claims processing operations and staffing have been 
reduced to the minimum levels necessary to continue mandatory payment 
processing. Consequently, VBA's progress in reducing the claims 
inventory and backlog is now stalled. The duration of the shutdown is 
directly impacting VA's ability to eliminate the backlog.
    Once the mandatory appropriations are exhausted near the end of the 
month, there will be 1,100 excepted personnel to staff VBA's 56 
Regional Offices and National Call Centers to date stamp incoming 
claims receipts. As a result of the exhaustion of available funding, VA 
will not be able to pay the on average $6.25 billion in monthly 
compensation, pension, education, and vocational rehabilitation 
benefits to over four million Veterans, Service members, and Survivors. 
This includes the following, specific impacts:

    <bullet>  Over $4.5 billion in recurring monthly compensation 
benefits payments will not get paid to 3.8 million Veterans, including 
an estimated 433,000 service-connected 100 percent disabled Veterans.
    <bullet>  Over $514 million monthly compensation benefits will not 
be paid to over 360,000 surviving spouses and children of wartime 
service Veterans.
    <bullet>  Over $304 million monthly pension benefits will not get 
paid to nearly 315,000 wartime low-income Veterans who are permanently 
and totally disabled or who are over the age of 65.
    <bullet>  Over $132 million monthly pension benefits will not get 
paid to over 200,000 low-income Survivors.
    <bullet>  No tuition, fees, or housing allowance benefits will be 
paid for Veteran education programs - impacting 500,000 Veterans, 
Service members, survivors and their designated beneficiary.
    <bullet>  Over $65 million in monthly Survivors and Dependents 
Educational Assistance will not be paid to an estimated 60,000 eligible 
spouses and children of Veterans.
    <bullet>  Over $42 million in Vocational Rehabilitation and 
Employment Program subsistence allowances will not be paid to 41,000 
service-connected disabled Veterans.
    <bullet>  All Volunteer Force Educational Assistance: Nearly $77 
million in All Volunteer Force Educational Assistance benefits will not 
be paid to 35,000 Veterans and Active Duty personnel.
    <bullet>  Over $12 million in Specially Adapted Housing and Auto 
Equipment Grants will not be provided to over 2,000 severely disabled 
Veterans for home and automobile adaptations.

    Even though most VBA funding is `mandatory' (connected with cash 
payments established by eligibility for programs), almost all of the 
funding for VBA-administered benefits has to be approved in annual 
appropriations. Areas continuing to fully operate throughout the lapse 
in appropriations are the VA Home Loan Guaranty program and the self-
supporting Insurance program that operates through trust funds. VBA 
Compensation & Pension and Readjustment Benefits accounts are 
entitlement accounts requiring annual appropriations from Congress. The 
FY 2014 VA request of $86.1 billion included $84.4 billion to pay 
Compensation & Pension and Readjustment mandatory benefits.
National Cemetery Administration (NCA)
    The National Cemetery Administration has sufficient funding to 
continue regular operations through late October. After available funds 
are exhausted, NCA will implement its lapse in appropriations shutdown 
plan. Of the 1,802 NCA employees, 1,046 will be non-excepted and 
subject to furlough. NCA employs the highest percentage of Veterans in 
the Federal workforce. Of the 1,046 non-excepted employees in NCA who 
may be furloughed, 757, approximately 72 percent, are Veterans. Many of 
them are disabled Veterans, who will also lose their disability 
compensation from VBA, if the shutdown continues.
    There will be 756 excepted employees, approximately 91 percent of 
whom are located in the field. Each national cemetery will conduct a 
reduced number of burials each day. This could cause some families to 
pay for storage of their loved ones' remains until burials can be 
scheduled. Although there may be possible delays in scheduling 
internments, NCA will continue to provide services to our Veterans and 
their families during their time of need with the utmost dignity, 
respect and compassion.
    Administrative and maintenance operations beyond emergency or 
essential functions will cease until the government reopens, and this 
reduced support may impact cemetery appearance. Requests for 
Presidential Memorial Certificates will not be processed. Several 
burial benefits are funded from the Compensation and Pension account. 
When these mandatory funds are exhausted, NCA will not be able to 
provide headstones, markers, medallions and outer burial receptacles to 
Veterans and eligible family members.
Veterans Appeals Processing
    Based on applicable legal standards, the processing of appeals will 
be suspended once funding is exhausted as of October 7th. The Board of 
Veterans Appeals (the Board) estimates that FY 2013 funds for its staff 
will be expended in early November, while funding for VBA's regional 
offices and AMC has already been exhausted. Employees who process 
appeals at VBA's 56 Regional Offices and the AMC have already been 
furloughed, and Board employees will be put into furlough status when 
remaining funds are expended. Once this funding is exhausted, all but 
one member of the Board staff will be furloughed. Hearings in Veterans' 
appeals are being cancelled each week, and appeals decisions will not 
be issued, leading to longer wait times for Veterans.
Office of Information Technology (OIT)
    The Office of Information and Technology provides critical support 
to VHA, VBA, NCA, and Central Office staff that ensures the delivery of 
benefits and health services to our Nations' Veterans.
    As of Monday, October 7th, 2,754 OIT employees were furloughed. 
About 551 OIT employees are paid from a revolving fund with a capital 
reserve; these positions are fully funded for approximately 3 months. 
An additional 4,670 employees are excepted to provide support for 
healthcare delivery and for benefits determination and delivery, 
support for staff offices, and ensuring our Veterans information 
continues to be protected. This number will decrease as the shutdown 
continues and additional staff members are furloughed. Most, if not 
all, improvements to our existing IT systems, as well as 
implementations of new capabilities, are suspended. Specific examples 
include; the Veterans Benefits Management System, the Veterans 
Relationship Management (VRM) Initiative, the Integrated Electronic 
Health Record (iEHR) IOC 2014, the Internal Classification of Diseases-
10 (ICD-10), and Personal Identify Verification (PIV)-only 
Authentication rollout.
    While these IT systems will be maintained, no new development 
upgrades will occur after October 7th. One system, VBMS, is one of the 
critical initiatives to reducing the backlog of disability claims over 
the next several years. On Monday, October 7th, all VBMS development 
ceased.
Veterans Health Administration
    Advanced appropriations have allowed VHA to continue its operations 
with its fiscal year 2014 funding in place, with some exceptions, such 
as funding for medical research and prosthetics, and operation of the 
Lovell VA-DoD joint facility. Lovell is fully operating with all staff 
on excepted status. Advanced appropriations only apply to selected VHA 
accounts.
Staff Offices
    In most VA staff offices there is a limited pool of FY 2013 funds 
to support a short period of continued operation. After this short 
period, the majority of the functions will no longer be performed as a 
result of the majority of the employees being non-excepted.
    In other offices, there are revolving fund programs that will 
continue to operate. Staff offices also have personnel who provide 
support to VHA and are reimbursed by VHA with advance appropriations. 
These staff will continue to work and perform their regular duties as 
``fully funded'' staff. Finally there are some staff who will continue 
to work, due to ``necessary implications'' or ``protection of life and 
property.'' Details by staff office are provided on the VA webpage in 
our VA Contingency Plan, Advance Operation in the Absence of 
Appropriations.
Summary
    While VA planned for an orderly shutdown in the event of a lapse in 
appropriations, a government shutdown of this scale is a new 
responsibility with unprecedented legal and programmatic questions. VA 
depends on coordination and synchronization with other Federal 
departments and agencies. There are functions in other agencies 
impacted by the shutdown that, in turn, impact our plan in 
unanticipated ways. Every department and agency is doing the best they 
can to deal with this evolving situation. With the predicted 
uncertainty that accompanies this lapse in appropriations, VA will do 
its best to keep this Committee informed. However, un-forecasted 
impacts of the shutdown are difficult to predict.
    President Lincoln's charge, to care for those who ``shall have 
borne the battle,'' remains clear and undiminished. Congress must 
resolve this fiscal impasse so that VA and our partners can fully 
deliver its mission of caring for and serving our Nation's Veterans.

                                 <F-dash>
                        Statement For The Record

                     Paralyzed Veterans of America
    Chairman Miller, Ranking Member Michaud, and members of the 
Committee, Paralyzed Veterans of America (PVA) would like to thank you 
for the opportunity to offer our views on the effect that the federal 
government shutdown is having and could potentially have on the 
operations of the Veterans Benefits Administration (VBA) and the 
payment of veterans benefits. As the shutdown has now stretched into a 
second week, veterans anxiously await a solution that will ensure 
benefits and services are not disrupted. Unfortunately, that prospect 
of a solution seems more and more unlikely with each passing day.
    Without question, the number one concern that has been raised by 
our members is whether or not they will receive their compensation and 
pension benefits at the end of October. Similarly, we have received 
some questions about payment of Dependency and Indemnity Compensation 
as well. Everyone has been caught off guard by this problem because no 
one seemed to realize that an authorization would be required in order 
to pay veterans benefits. While we appreciate the intent behind the 
various legislative measures that have been considered to establish 
this authorization during the shutdown, we must emphasize that we 
cannot support this method of doing business. If Congress is serious 
about addressing this problem, then it should fully fund the Department 
of Veterans Affairs (VA) and its programs immediately.
    It is our understanding that many parts of the operations of VBA 
will be shuttered this week. While VBA retained some carryover funds to 
continue operations for a limited period of time, those funds are 
drying up quickly. As a result, more employees will be furloughed as 
the days and weeks progress. Interestingly, we have received 
conflicting reports as to what affect the furloughs and office closures 
are having on our own field operations. It is our understanding that 
some Regional Offices are all but closed while some remain at least 
partially open. Some of our National Service Officers (NSO) have access 
to federal facilities while others do not. Additionally, the 
information available to our NSO's will be limited to what can be 
obtained from the VBA systems which remain functional during the 
shutdown. It is also more widely understood that while our NSO's may 
still be working, veterans seeking claims assistance will be unable to 
come into the Regional Offices to meet with them. We have real concerns 
that given the wide-ranging feedback we have received from the field, 
it seems that VA has no clear and consistent plan for the Regional 
Offices to handle the shutdown, as well as why the veterans' service 
organizations have been kept in the dark about what the plans are 
moving forward.
    It is our understanding that VA Call centers that provide 
information and assistance on a broad range of VA benefits and services 
will not be available. Claimants will thus be in danger of losing 
entitlement to benefits which are time sensitive. VA has informed us 
that during this period it will date stamp any mail that it receives 
for claims purposes in order to preserve the date of claim. However, we 
question what will happen to claimants who were unable to obtain 
relevant information that would have prompted the timely submission of 
a claim.
    Similarly, we have serious concerns about the impact that the 
government shutdown will have on the process for providing Specially 
Adapted Housing (SAH) benefits. SAH claims require expeditious follow-
up to the multiple step processes that are required to provide a safe 
environment to catastrophically disabled veterans. Many veterans with 
Amyotrophic Lateral Sclerosis (ALS) experience rapid exacerbations of 
their terminal illness which require appropriate modifications to their 
home to protect them from the hazards of everyday living. The role of 
VA employees who handle SAH in these cases is to evaluate the needs of 
the veteran and coordinate the various building codes and other related 
issues to facilitate the implementation of the needed home 
modifications as quickly as possible. Unfortunately, the decrease in 
the VBA workforce as a result of the shutdown will certainly cause 
unnecessary delays to SAH claims that may result in severe consequences 
for veterans who need the greatest assistance.
    Meanwhile, the function of the Veterans Benefits Management System 
(VBMS) and its widespread implementation is jeopardized by the 
shutdown. VBMS roll outs are already falling behind schedule and the 
furlough will further erode the progress of this critical VBA 
initiative. The incremental releases which build on the ability of 
VSO's to better support the claims adjudication process will be delayed 
and will likely have a reverse catalytic effect to the progress that 
has been made. Additionally, the system, which requires significant and 
ongoing maintenance through the Information Technology (IT) management 
structure just to remain operational, will likely experience 
considerable down time.
    Similarly, the Stakeholder Enterprise Portal (SEP) and other IT 
initiatives will not be supported and related problems will go 
unresolved. SEP is used to obtain the status of claims and payment 
history. The program is user friendly when it operates properly, but 
intervention at the current stage of development is often required to 
reconcile technical issues for individual issues and to develop patches 
for more broad based problems. With IT staff that support VBA's 
operations furloughed, any problems that arise with the IT support 
systems will simply languish, further slowing the ability of VBA to 
process claims in a timely fashion.
    Finally, what will be the long term impact on claims processing in 
general? The longer the government shutdown continues, the greater 
inevitable effect it will have on the increase in the claims and 
appeals backlog. This is of particular concern as it relates to the 
erosion of the progress made since April and the ability to meet the 
2015 target set by Secretary Shinseki. The shutdown will have an 
impact, but we do not want it to become an excuse for failure to meet 
the stated goals.
    Ultimately, the partisan bickering and political gridlock that have 
put veterans' benefits and services at risk is unacceptable. We cannot 
emphasize enough our opposition to funding the operations of the VA 
through short-term continuing resolutions (CRs) or other stop-gap 
measures, such as the partial funding measures that have been debated 
in the House of Representatives. While we recognize the fact that the 
House did in fact complete the ``FY 2014 Military Construction and 
Veterans Affairs Appropriations Act'' earlier this year, it is time for 
the political grandstanding to stop. PVA, along with our partners in 
The Independent Budget--AMVETS, Disabled American Veterans, and 
Veterans of Foreign Wars--just last week called on the leadership of 
the House and Senate to take immediate action to enact the full year FY 
2014 appropriations bill for the VA.
    Additionally, the activities in Congress over the last two weeks 
(and really for many years) further affirm the need to approve 
legislation to make the VBA and all other VA programs a part of advance 
appropriations. Advance appropriations have shielded VA health care 
from most of the harmful effects of the current government shutdown as 
well as prior continuing resolutions. The Independent Budget called on 
leadership last week to immediately bring H.R. 813, the ``Putting 
Veterans Funding First Act,'' to the floor for consideration, amendment 
and approval. We hope that you will continue your efforts to see this 
critical legislation through to final enactment.
    In the end, PVA, the co-authors of The Independent Budget, our 
partners in the veterans' service organization community, and the 
millions of veterans that we represent will no longer tolerate Congress 
leveraging veterans' health care and benefits to achieve unrelated 
political ends. The actions of Congress in the last couple of weeks 
reflect a failure of leadership. Congress' obligation to veterans does 
not start in the eleventh hour of a national crisis; you have an 
obligation to pass a timely, sufficient budget for all veterans 
programs, benefits and services.
    We appreciate the bipartisan atmosphere that this Committee has 
often experienced. And yet, even that has now been tarnished. It is 
time for this nonsense to stop.
    PVA thanks you once again for allowing us to submit comments for 
the record. We will continue to keep the Committee staff updated on the 
impact of the shutdown on VBA as well as our own operations. We would 
be happy to answer any questions that you may have.
Information Required by Rule XI 2(g)(4) of the House of Representatives
    Pursuant to Rule XI 2(g)(4) of the House of Representatives, the 
following information is provided regarding federal grants and 
contracts.
                            Fiscal Year 2013
    No federal grants or contracts received.
                            Fiscal Year 2012
    No federal grants or contracts received.
                            Fiscal Year 2011
    Court of Appeals for Veterans Claims, administered by the Legal 
Services Corporation--National Veterans Legal Services Program-- 
$262,787.

                                 <F-dash>
                 Iraq & Afghanistan Veterans Of America
    Chairman Miller, Ranking Member Michaud, and Distinguished Members 
of the Committee:
    On behalf of Iraq and Afghanistan Veterans of America (IAVA), I 
would like to extend our gratitude for the opportunity to share with 
you our views, thoughts, and concerns regarding the ongoing government 
shutdown and its impact on the ability of the Department of Veterans 
Affairs (VA) to provide benefits and services to America's veterans.
    IAVA is the nation's first and largest nonprofit, nonpartisan 
organization for veterans of the wars in Iraq and Afghanistan and their 
supporters. Founded in 2004, our mission is critically important but 
simple - to improve the lives of Iraq and Afghanistan veterans and 
their families. With a steadily growing base of nearly 270,000 members 
and supporters, we strive to help create a society that honors and 
supports veterans of all generations.
    In partnership with other veteran service organizations (VSOs), 
IAVA has worked tirelessly to see that veterans' needs and concerns are 
appropriately addressed by the VA. IAVA has fought hard over the years 
to not only hold the VA accountable on its promises to our nation's 
veterans, but also to ensure that veterans are fully aware of the 
status of operations within VA.
    Lately, however, the political climate in Washington has made doing 
this a very difficult task. Congress, VSOs, and the public have often 
received incomplete, inaccurate, and/or inconsistent information from 
the administration and the VA about how the government shutdown would 
impact veterans and VA services. These inconsistencies have left 
veterans confused, concerned, and dismayed.
    Since the federal government shutdown began, IAVA has fielded 
countless calls and received numerous emails, tweets, and Facebook 
messages from veterans all over the country asking about the impact of 
the shutdown on their benefits and services. We have heard from a 
number of veterans who rely on disability and GI Bill benefits and 
don't know if they'll get their next check. In fact, demand for 
education resources at IAVA has tripled in just a week.
    One recent call came from a female veteran who is 100% disabled 
with three kids and no savings. If she does not receive her November 
disability check on time, she worries that she will not be able to pay 
her rent and electric bill or even buy food for her family. She shared 
that several other veterans she knows in her own hometown are in the 
same situation as she is, and they all are worried about what is yet to 
come.
    Another IAVA member veteran recently relayed that he had applied 
for a VA home loan and had already received his Certificate of 
Eligibility and appraisal for the home he purchased when his mortgage 
lender indicated that it may not be able to proceed with the loan due 
to the government shutdown. While VA's most updated version of its 
public guidance on the shutdown states that VA home loan processing 
should not be impacted by a lapse in appropriations, this veteran's 
story is evidence of a common concern we are starting to see: the 
impact of uncertainty and doubt on businesses that interact with 
veterans and impact their lives and livelihoods.
    Stories such as these are only the tip of the iceberg. We also hear 
from veterans who are furloughed federal government employees, veterans 
unsure of what a new wave of furloughs at VA means for services on 
which they rely, and veterans in the VA disability claims backlog who 
are worried that their wait will be even longer.
    In recent months, we have seen a significant and laudable reduction 
in the backlog, due in part to a variety of factors such as the special 
claims processing initiatives, veterans filing more fully developed 
claims with the guidance of VSO service officers, mandatory overtime 
for VA claims processors, media attention, and public pressure. But if 
the shutdown continues, we may not only see a slowdown of this trend, 
but a potential reversal of the trend. This would represent a major 
setback for the VA, for veterans, and for the country.
    The men and women who served our nation did their jobs without 
question and without delay, and those currently serving, continue to 
perform their duties even while questions about whether or not our 
government will default on its commitment to compensate and care for 
them and their families. IAVA urges Congress to end this standoff and 
will restore funding to the government so that it can properly and 
fully serve our nation's veteran population.
    Veterans are hurting during the shutdown. They need the shutdown to 
end so they can receive and benefit from the services and support they 
have earned. But until Congress can re-open the government, our 
veterans deserve clear, reliable, and accurate information.
    Mr. Chairman, IAVA again appreciates the opportunity to offer our 
views on this important topic, and we look forward to continuing to 
work with each of you, your staff, and this Committee to continue to 
improve the lives of veterans and their families.
    Thank you for your time and attention.

                                 <F-dash>
                                 AMVETS
Introduction
    Distinguished members of the House Veterans' Affairs Committee, it 
is my pleasure, on behalf of AMVETS, to offer this testimony outlining 
our questions and concerns related to the effects on the government 
shutdown on VA benefits and services to veterans.
    I would like to begin today by commending the committee for all of 
its work on behalf of American veterans everywhere, especially its 
efforts to improve efficiencies by eliminating redundant and/or 
counterproductive programs and its unwavering commitment to all of the 
men and women whose job it is to protect and defend this country.
    As the United States absorbs the aftereffects of more than a decade 
of continuous war and in the face of the planned draw-down of military 
personnel, the VA has been, and will continue to be, severely stressed 
for the foreseeable future. Nothing is more important for our veterans 
than adequately meeting their physical/mental health care needs and the 
accurate and efficient processing of their disability claims.
    Thanks to improvements in battlefield medicine, swift triage, 
aeromedical evacuations and trauma surgery, more combat-wounded than 
ever before are surviving horrific wounds and will be applying for the 
benefits they were promised and earned on the battlefield. Your 
committee has a responsibility to ensure that the VA and our nation 
live up to the obligations imposed by the sacrifices of our veterans.
    It is encouraging to acknowledge at this time that, despite the 
extraordinary sacrifices being asked of our men and women in uniform, 
the best and the brightest continue to step forward to answer the call 
of our nation in its time of need. I know that each of you is aware of, 
and appreciates, the numerous issues of importance facing our military 
members, veterans, retirees, families, and survivors.
Background
    In the early 1980s, Attorney General Benjamin Civiletti pointed out 
that the Anti-Deficiency Act, which was originally enacted in 1884, 
required government agencies to close if their funding expired. This 
legislation is one of the major laws that gives Congress constitutional 
control over public funds. All funding lapses since the 80's, have 
resulted in actual government shutdowns, although most of them 
shutdowns were of very limited duration. The most significant 
government shutdown to date came during the Clinton Administration and 
lasted 21 days in 1996.
    As mentioned above, this current government shutdown is not a 
situation without precedence, even excluding the shutdown in 1996. 
Continuing with our historical look back, we find that since 1976, 
there have actually been 17 occasions when Congress failed to meet its 
annual funding deadline, six of which took place in the 1970s. Not all 
of these funding gaps actually lead to physical shutdowns.

[GRAPHIC] [TIFF OMITTED] 85863.001

Comments
    The focus of the remainder of my remarks will pertain to the 
current situation we find ourselves in, the second government shutdown 
in 17 years and its effects on VA. And even though the underlying cause 
of these shutdowns, the inability of Congress and the president to 
agree on a spending bill, have a lot in common, there are also many 
differences. The result, not surprisingly, is that there is a lot of 
confusion, frustration and outright hostility being experienced, not 
only by American Veterans and federal employees, but also by ordinary 
citizens and even government decision-makers.
    It goes without saying, that the government we have today is not 
the same as the one we had in 1996, thanks to technology and government 
overhauls, etc., so we cannot depend on previous experience as a guide 
to what may or may not happen. This unknown factor is creating undue 
fear and anxiety for the millions of American Veterans receiving a 
myriad of VA services and benefits and this is unacceptable to AMVETS 
and the larger veteran's community.
    Since anything that effects VA has cascading effects on all VA 
stakeholders, AMVETS is seeking clear guidance to share with our 
members as this shutdown continues. Currently, AMVETS National Service 
Officers and the AMVETS National Service Director's office are being 
inundated with urgent requests for information from veterans all around 
the country who are concerned that their earned benefits may lapse as a 
result of the government shutdown. It must not be forgotten that for 
many veterans, especially the most vulnerable, their VA benefits may be 
their sole source of income. Additionally, veterans want to know:

    <bullet>  if they'll be able to file new claims;
    <bullet>  if they'll be able to file appeals;
    <bullet>  whether they'll be able to check the status of a pending 
claim or appeal;
    <bullet>  what will happen to their G.I. Bill benefit payments;
    <bullet>  if NCA interments will continue in a timely manner;
    <bullet>  why they are being prevented from visiting monuments 
dedicated to their own service and sacrifice;
    <bullet>  what effect the shutdown will have on the backlog;
    <bullet>  will disabled veterans continue to receive their 
compensation or pension benefits;
    <bullet>  whether or not they'll be able to meet with Service 
Officers in VA Regional Offices;
    <bullet>  how will the furloughing of 2,754 Office of Information 
Technology employees and contractors impact the development of 
important VA programs such as, VBMS, Data2Data (D2D), DBQ's (Disability 
Benefit Questionnaires), and VBMS Calculators;
    <bullet>  what are the long-term ramifications of an extended 
shutdown; and
    <bullet>  for those with security clearances, there are concerns 
about possible negative effects during their next background check to 
renew their clearance if they are not paid in a timely manner.

    Concerning meeting Secretary Shinseki's goal of eliminating the 
backlog by 2015, back of the envelope calculations show that since the 
beginning of calendar year 2013, VA has been reducing the backlog by an 
average of 5,420 claims a week. With 98 weeks left until the end of 
FY15 if the VA is able to continue reducing the backlog at the same 
rate, VA will have successfully eliminated the backlog by 2015. 
Additional calculations show that the VA has a buffer of 112,000 claims 
if they continue reducing the backlog at the current rate; however, 
every week that the shutdown continues reduces the VA's ability to meet 
the Secretary Shinseki's goal by 2015.
    Of major concern to AMVETS is the information coming out of VA 
indicating that it may not have enough money to pay disability claims 
and pension payments beyond the end of October, which would drastically 
affect some 3.6 million veterans.
Closing
    I would like to conclude this testimony, by noting for the record, 
that AMVETS fully supports both Secretary Shinseki and Under Secretary 
for Benefits Hickey. Both of these leaders have struggled to fulfill 
their obligations to their fellow veterans thanks to the antiquated 
civil service system current in place. While we appreciate that this 
system, and its attendant protections, was originally established to 
rightly protect against patronage, worker exploitation, and political 
manipulation. But instead of protecting the best employees and creating 
an environment in which excellence can thrive, civil service 
protections now serve to lock the worst employees into place, making it 
virtually impossible for managers to fire poor performers. Neither VA 
Secretary Eric Shinseki, nor any future VA secretary, can be fully 
expected to fix a system in which they are unable to fire bad employees 
and reward good employees based on merit (instead of tenure). We need 
to give the VA's leadership the tools they need to fix the system.
    This completes my statement at this time; thank you for the 
opportunity to offer our remarks on this critical issue.

                                 <F-dash>
             Veterans of Foreign Wars of The United States
    MR. CHAIRMAN AND MEMBERS OF THE COMMITTEE:

    On behalf of the men and women of the Veterans of Foreign Wars of 
the United States (VFW) and our Auxiliaries, I would like to thank you 
for the opportunity to present our views on the effects of the 
government shutdown on the Veterans Benefits Administration (VBA) and 
the VFW's ability to provide service officer assistance to veterans and 
active duty servicemembers.
    Now in the second week of the government shutdown, veterans are 
raising concerns about receiving compensation, pension and Dependency 
and Indemnity Compensation at the end of October. We have asked our 
membership to call and write their members of Congress to tell them to 
pass a fully funded budget for the Department of Veterans Affairs (VA). 
Included in this call-to-action is a request to pass H.R. 813 and S. 
932 to ensure that VA will be fully funded through Advance 
Appropriations in the future.
    In conversations with VA personnel and VFW service officers, the 
effectiveness of our service officers to represent veterans will be 
greatly impaired. VA has informed the VFW that all service officers, 
whose offices reside inside the Regional Offices (RO), will continue to 
have access to their offices to make phone calls and to review claims, 
but veterans will not be allowed into the buildings for face-to-face 
meetings. As the ROs begin closing, VFW service officers will have to 
reschedule meetings off-site to continue to assist veterans. Even if 
all service officers are granted access, there will be a loss of 
productivity in taking claims, counseling veterans and, responding to 
calls and reviewing decisions prior to promulgation.
    Our service officers are working to reschedule appointments at 
locations that range from local Vet Centers to VFW Posts. Aside from 
the logistics of changing these meeting locations, service officers who 
do not have access to encrypted laptop computers will have to rely on 
filing paper claims as opposed to helping veterans file claims 
electronically. This is counterproductive to the desire of VA to move 
to an all-electronic claims process.
    Currently, our service officers are in their offices to take calls 
from veterans, allowing for timely responses to questions and concerns. 
With our service officers rescheduling meetings outside the office, 
those calls will go to voicemail, leaving our service officers trying 
to reconnect with the veterans at a later time.
    The Transition Assistance Program (TAP) operates on military 
installations around the country. It is a perfect opportunity for our 
service officers who are on or near a military installation to 
introduce themselves to service members and describe how we can assist 
them in filing a claim. TAP operations are halted by the shutdown at 
most locations where VFW pre-discharge counselors work. Currently, our 
service officers at military instillations are working from their usual 
worksites after being denied access early on. Our service officer at 
Joint Base Lewis-McCord, Wa, will be relocated to the Veterans Home at 
American Lake VA Hospital if the shutdown continues beyond this week. 
At some of our pre-discharge locations, the intake sites are closed, so 
our service officers are either faxing claims to our Department service 
officer or hand delivering claims to the RO for a date stamp. The VFW 
also predicts a fall off of service members and veterans who will reach 
out to us because weekly TAP classes are being disrupted.
    It is our understanding that the Board of Veterans Appeals is 
operating day-to-day. Once this office closes, our service officers who 
assist at the Board will no longer have access to the building and 
their work - again, slowing the claims process and denying veterans of 
their disability and pension claims decisions and appeal denials.
    These are the known setbacks of the government shutdown on the 
everyday work the VFW conducts on behalf of veterans, and the partial 
impact the shutdown will have on veterans and VA. It is time to stop 
leveraging veterans against larger political agendas. Partial funding 
measures or short-term Continuing Resolutions will only continue to 
adversely affect the care and benefits veterans have earned. So again, 
the VFW asks Congress to pass a full-year Fiscal Year 2014 
appropriations bill without delay, and pass H.R. 813 and S. 932 to 
ensure veteran programs and services are not disrupted in the future.
    Mr. Chairman, thank you again for allowing the VFW to submit our 
views for the record. We will continue to inform your Committee of the 
impact this shutdown has on our daily operations and the veterans we 
serve.
 Information Required by Rule XI2(g)(4) of the House of Representatives
    Pursuant to Rule XI2(g)(4) of the House of Representatives, VFW has 
not received any federal grants in Fiscal Year 2013, nor has it 
received any federal grants in the two previous Fiscal Years.

                                 <all>

</pre></body></html>
